<html>
<title> - FOREST SERVICE BUDGET PROPOSAL FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-380]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-380
 
                  FOREST SERVICE BUDGET PROPOSAL FOR 
                            FISCAL YEAR 2013 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   TO

 CONSIDER THE PRESIDENT'S PROPOSED BUDGET FOR FISCAL YEAR 2013 FOR THE 
                             FOREST SERVICE

                               __________

                             MARCH 6, 2012


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

74-080 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




































               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Tidwell, Hon. Tom, Chief, Forest Service, Department of 
  Agriculture....................................................     3

                                APPENDIX

Responses to additional questions................................    33


          FOREST SERVICE BUDGET PROPOSAL FOR FISCAL YEAR 2013

                              ----------                              


                         TUESDAY, MARCH 6, 2012

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why don't we get started?
    Today the committee will consider the President's request 
for the Forest Service in the fiscal year 2013 budget. The 
request would result in a 1-percent decrease in the overall 
Forest Service budget with a slight increase in the 
discretionary accounts.
    The budget has a number of high spots. For example many of 
us on the committee support full funding for the Collaborative 
Forest Landscape Restoration Program. This budget does that as 
well.
    It maintains a strong commitment to hazardous fuels 
reduction.
    It includes a modest increase in land acquisition funding 
for a number of high priority projects such as the broadly 
supported Miranda Canyon acquisition in New Mexico.
    At the same time the Forest Service and its budget continue 
to face some significant challenges. For example, past 
emergency borrowing from discretionary accounts and congress? 
recent rescissions from fire fighting accounts have left the 
Forest Service, once again, at risk of running out of fire 
fighting funds. As we discussed last year at this hearing the 
fleet of airplanes used for fire fighting continues to approach 
the end of its lifespan. The value of timber remains low. 
Climate change and drought have left an unprecedented number of 
acres of western forest affected by bark beetles.
    After congress rejected the same proposal last year the 
budget again proposes to eliminate the account for the Valles 
Caldera National Preserve. Obviously that's of great concern to 
me.
    I'd like to welcome back Chief Tom Tidwell and Acting 
Forest Service Budget Director Susan Spear to testify this 
morning.
    Chief Tidwell, I've been very pleased that New Mexico's 
National Forests have been able to take advantage of the 
Collaborative Forest Landscape Restoration Program and will be 
among the first in the Nation to implement the Forest Service's 
new planning rule and will serve as a demonstration project for 
the integrated resource restoration account pilot program. So 
we welcome you here this morning. Thank you for those excellent 
opportunities.
    Let me defer now to Senator Murkowski for any opening 
remarks she has.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Welcome to you, 
Chief Tidwell. I appreciate you being here this morning.
    I want to start this morning by recognizing the efforts 
that your staff is making to be a cooperative partner in this 
quest to finally finalize the Sealaska bill. I hope that we can 
cross the finish line on that soon, but wanted to start off 
with that.
    I was in Southeast Alaska over the President's day recess. 
While I was there I was told that there are more Forest Service 
employees in the forest in Southeast Alaska than there are 
employees of the timber industry which I thought was kind of 
interesting.
    Then that same week that I was there, I heard President 
Obama speak of the need to revitalize manufacturing here in 
this country. So I have to ask the question, if revitalization 
of manufacturing is truly a goal it would seem to me that you'd 
want to flip the Forest Service employee to timber industry 
employee ratio on the Tongass there.
    I see once again that you've proposed the Integrated 
Resource Restoration Program. This past year Congress provided 
you with a partial authority to test that concept in regions I, 
IV and III. I think before that pilot can or will be expanded, 
we're going to need to see the details on the results from the 
initial pilots to really understand what the various component 
parts of the integrated Resource Restoration program produced 
as well as how much funding was needed for each component to 
gain the accomplishments.
    While I appreciate the Administration's willingness to 
include a Secure Rural Schools proposal in the proposed budget, 
it is at a significantly lower level than the counties enjoyed 
back in FY 2011. The proposal did not include any detail on how 
to pay for the recommended 1 year extension. So I hope that the 
formal legislative proposal from your agency will be arriving 
soon with sufficient detail on which Forest Service programs 
you would prefer that the Interior Approps Committee target to 
pay for the extension of the program. I think that it is 
critical that this detail be provided to avoid either across 
the board cuts or cuts to programs that might not reflect the 
agency's idea of what's in its best interest.
    I also want to congratulate your staff on getting the 
budget explanatory notes up to our offices on the same day that 
the President announced his FY 2013 budget. I'm told by my 
staff that this is the first time in their experience that the 
agency got this document to our offices on the same day that 
the budget proposal was released. So please convey my 
appreciation to your staff. I know that's hard work.
    Now having said that, let me recommend that you attempt to 
provide the regional station and area allocations for the 
fiscal year you're working toward in the budget justification. 
Giving Congress the allocation and accomplishment information 
for FY 2009 through 2011 was nice, but many of us want to have 
some idea of how the FY 2013 funds will be allocated to the 
various regions and to the budget line items if Congress should 
decide to fund the President's request. This information will 
not only help us better understand how the agency will 
prioritize program management, but also which regions may be 
advantaged or disadvantaged by the construction of that 
proposed budget. I think this kind of information becomes even 
more important when the Forest Service is attempting to 
convince the Approps Committee to consolidate budget line items 
in the IRR program.
    The last thing I want to mention is the replacement of the 
large air tanker modernization strategy that was recently 
released. As I read that document it's kind of a rehashing of 
the alternative aircraft types that your agency thinks might be 
available, but a little more than that. So I'm not quite sure 
whether we've actually laid out a strategy.
    I do understand that the Forest Service has legacy aircraft 
requests for proposals out for bids. Will shortly offer an RFP 
on next generation large air tankers which I hope will help 
both your fire and aviation group and Congress understand your 
modernization plans. My hope is that once these proposals have 
been reviewed, the Forest Service will be able to give us a 
clearer picture of exactly how it plans to move forward given 
the budget realities that face our country.
    With that, Mr. Chairman, I look forward to the comments 
from the Chief and the questions and answers.
    The Chairman. Chief Tidwell, why don't you go ahead and 
make whatever comments you'd like about the proposed budget. 
Then we'll have some questions.

STATEMENT OF TOM TIDWELL, CHIEF, FOREST, SERVICE, DEPARTMENT OF 
  AGRICULTURE, ACCOMPANIED BY SUSAN SPEAR, ACTING DIRECTOR OF 
       BUDGET, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Tidwell. Mr. Chairman, members of the subcommittee, 
once again it's a privilege to be here to discuss the 
President's 2013 budget request for the Forest Service. You 
know, I really appreciate the support that we receive from the 
subcommittee. I look forward to working with you to do the best 
job that we can to provide what the public, the American 
public, wants from their National Forests and Grasslands.
    The President's budget request reflects our commitment to 
fiscal restraint with significant reductions in some areas and 
some very difficult choices to ensure that we're spending as 
efficiently as we can and focusing on the priorities for the 
American public. The budget supports these priorities through 3 
key objectives.
    The first is to maintain our focus on restoring and 
sustaining another 2.6 million acres of forest and grasslands 
by increasing our collaborative efforts to build support for 
these restoration activities that create thousands of jobs each 
year.
    We're going to continue to request full funding for the 
Collaborative Forest Landscape Restoration fund.
    We're also requesting permanent authorization for 
stewardship contracting.
    We'll continue to apply our science that's developed by 
Forest Service researchers to help us address the increasing 
frequency of forest disturbances from longer fire seasons, 
record insect and disease outbreaks, invasives, floods and 
droughts.
    Yes, we'll continue to propose an integrated resource 
restoration budget line item to align our budget structure with 
the work we're doing.
    Now I appreciate the pilot program that you've provided us 
for the 3 regions. I look forward to be able to submit our 
program to you to how we're actually going to track the outputs 
and the outcomes. Be able to work with you to be able to show 
you that this is a better way for us to align our budgets.
    The second key objective is to request the funding that we 
need for wild land fire suppression.
    Now this will include a level of preparedness that will 
continue our success to suppress 98 percent of our wild land 
fires during initial attack. They request the 10-year average 
for suppression. But also it will continue to reduce the threat 
of wildfire to our homes and communities by requesting the same 
level of funding in hazardous fuels so that we can treat 
another million acres in the wild land urban interface.
    It also requests an additional $24 million to begin to 
modernize our large air tanker fleet.
    Now our third objective is that through the America's Great 
Outdoors initiative we're going to increase support for 
community based conservation, provide opportunities for 
economic expansion to continue to retain and create jobs. We're 
going to do this with our focus on recreational opportunities 
that not only add to the quality of our lives. But support our 
communities by maintaining over 223,000 jobs with over $23 
billion in annual spending by recreation visitors.
    We want to continue to help America reconnect with the 
outdoors by increasing conservation education, volunteer 
opportunities and increasing new employment opportunities.
    We also do request a modest increase in LWCF funding in our 
Forest Legacy program so that we can use conservation easements 
and land acquisition to protect some critical forests while 
acquiring public access and reducing Administration costs.
    We'll continue to work with our States to ensure their 
State and private forestry programs promote conservation. We're 
doing everything we can to keep private forests, forested.
    We also want to continue our work to encourage biomass 
utilization and other renewable energy opportunities while 
working to process our oil and gas permits, applications and 
energy transmission proposals as efficiently as we can. We do 
include a framework for reauthorization of Secure Rural Schools 
Act that I hope we continue to be able to work with you as to 
find a solution to be able to reauthorize Secure Rural Schools.
    Now in addition, we will continue our ongoing actions to 
increase Administrative efficiencies and reduce our management 
and overhead costs by $10 million over the next 2 years. That's 
in FY 2013 and FY 2014.
    So, Mr. Chairman, with that I want to thank you again for 
the opportunity to address the subcommittee. I look forward to 
answering your questions.
    [The prepared statement of Mr. Tidwell follows:]

Prepared Statement of Tom Tidwell, Chief, Forest Service, Department of 
                              Agriculture
    Mr. Chairman and members of the subcommittee, it is a privilege to 
be here today to discuss the President's Budget request for the Forest 
Service for fiscal year (FY) 2013. I appreciate the support this 
subcommittee has shown for the Forest Service in the past, and I look 
forward to working together with Members of the Committee in the future 
to ensure that stewardship of our Nation's forests and grasslands 
continues to meet the desires and expectations of the American people. 
I am confident that this budget will allow the Forest Service to meet 
this goal while demonstrating both fiscal restraint and efficient, 
cost-effective spending.
    Our Nation can and should take steps to reduce the deficit and make 
government leaner and more efficient in the 21st century. The FY 2013 
budget that the President is proposing reflects the difficult choices 
we need to make to help reduce the deficit while investing in long-term 
economic growth and job creation. To make the strategic investments to 
grow the economy and tackle the deficit, this budget makes difficult 
cuts to programs. It also reflects efficiency and improvements to 
reduce our administrative costs. It is designed to appropriately fund 
programs that matter to Americans.
                             budget context
    The Forest Service manages 193 million acres of public lands on 155 
national forests and 20 national grasslands in 44 States and Puerto 
Rico. We also work effectively with States, Tribes, local governments, 
communities and private forest landowners to support the sustainable 
stewardship of the 423 million acres of private forest, 68 million 
acres of state forests and 18 million acres of forestlands on Indian 
reservations in the United States. Forest Service management is based 
on peer-reviewed science; we lead the way for the Nation and, indeed, 
the world in cutting-edge research on a full range of conservation 
issues, including bioenergy, ecological restoration, wildland fire 
management, forest pests and diseases, and sustainable outdoor 
recreation.
    Our mission is to work with the American people on all lands to 
sustain all the benefits needed and wanted from their forests and 
grasslands. For example, approximately 80 percent of the Nation's 
freshwater resources originate on forests, and Americans get more than 
half of their water supplies from sources that originate in the 
Nation's forests. Forest Service management, combined with assistance 
to private landowners, helps to protect the single greatest source of 
drinking water in the Nation.
    Jobs are maintained and created through the work of the Forest 
Service. Millions of Americans have forest-related jobs, from forest 
restoration work to recreation use, wood products, grazing, and energy 
and mineral development. In 2010, the National Forests attracted over 
170 million annual visitors, and recreation use, which alone sustained 
nearly 223,000 jobs while contributing $14.5 billion annually to the 
U.S. economy.
    Water and jobs are only some of the benefits Americans get from 
their forests and grasslands. These lands provide a whole range of 
ecosystem services-clean air, clean water, fertile soil that provides 
timber, forage, energy, food and fiber, fish and wildlife habitat, 
carbon storage, and opportunities for outdoor recreation just to name a 
few. These critical services to people are now at risk due to declining 
forest health, such as bark beetle infestation in the West. Regional 
drought, invasive species, loss of open space, catastrophic wildfires, 
devastating outbreaks of insects and disease, and the overarching 
challenge of a changing climate are degrading our Nation's natural 
infrastructure-the forests and grasslands that Americans depend on for 
so many services, values, and benefits.
    By making targeted investments in the landscapes most at risk, we 
can restore healthy, resilient forests and grasslands, provide 
recreational and hunting access, and provide forest products for the 
benefit of all Americans. Our FY 2013 budget request is designed to do 
just that by working with partners across borders and boundaries at a 
landscape level. Our focus on landscape-scale conservation dovetails 
with broader Administration priorities, including the President's 
America's Great Outdoors initiative, the Secretary's ``All-Lands'' 
vision, and the Department's high-priority goal for enhancing water 
resources. Landscape-scale conservation is designed to maintain and 
enhance the resilience and productivity of the Nation's forests and 
grasslands through targeted investments in natural infrastructure. Our 
investments will put Americans back to work, maintaining and creating 
jobs and economic opportunities for both rural and urban Americans.
                 fy 2013 budget request and priorities
    The FY 2013 President's Budget requests $4.86 billion for the 
Forest Service, an increase of $15.5 million over the 2012 appropriated 
level. This budget responds to the public's desire for the conservation 
and stewardship of the Nation's forests and grasslands. Through 
strategic partnerships, we accomplish more work that yields benefits 
for all Americans, while sustaining forest and grassland ecosystems for 
future generations. In these tough economic times, this budget balances 
spending on priorities against reductions. It establishes spending on 
conservation principles and natural resource development needed by the 
Public and for the Nation's economy. Forest Service managers will 
continue to scrutinize spending and programs to ensure the public's 
investment is used wisely toward safely achieving key outcomes and 
shared priorities.
    The Forest Service's FY 2013 President's Budget prioritizes Forest 
Service funding in three themes: restoration, communities, and fire. 
Our priorities are designed to respond to the needs of the American 
public. The President's Budget aligns with the Secretary's ``All 
Lands'' vision to meet the challenges of ecological restoration through 
collaborative approaches to address forest mortality and live tree 
density, invasive species and watershed degradation. The budget request 
will engage communities and help Americans reconnect to the outdoors, 
expand on recreation benefits and create a wide range of opportunities 
for economic expansion to retain and create jobs. The budget request 
also fosters partnering with communities and cooperating agencies to 
reduce the threat of wildland fires to people, property and watersheds.
                           restoration theme
    With the current threats from insects and disease, wildfire, urban 
development, and impacts of a changing climate, active restoration is a 
key component of our FY 2013 budget strategy. To achieve our 
restoration goals, we engage a broad set of partners in active forest 
management at large, landscape scales and apply peer-reviewed science 
related to forest disturbances, fire management, and the effects of a 
changing climate. Our restoration efforts are guided by a continuous 
cycle of assessing, implementing and adapting based on information from 
inventory and monitoring efforts. This strategy will yield a variety of 
forest products and restore the structure, function, composition, and 
processes of healthy, resilient ecosystems across the Nation.
    Restoration means jobs and economic opportunities. In order to 
maintain forest-related jobs we are requesting permanent authority for 
stewardship contracting. This authority allows the agency to accomplish 
collaborative restoration work at a landscape scale. Current authority 
for stewardship contracting expires in September 2013.
Landscape-Scale Restoration Priorities
    Through active forest management, the Forest Service is restoring 
ecosystem structure, functions and processes in order to improve the 
health and resilience of ecosystems across large landscapes. Through 
the proposed Integrated Resource Restoration program, we expect to 
continue to collaborate using an inclusive process to find common 
ground across the many stakeholders and to leverage our investments for 
broader conservation impacts. Integrated Resource Restoration blends a 
cross-section of forest management activities,\1\ such as forest 
thinning to reduce hazardous fuels, decommissioning roads, and removal 
of fish passage barriers-all of which lead to improved forest and 
grassland health and watershed function. The Watershed Condition 
Framework, released in 2011, will help managers prioritize Integrated 
Resource Restoration activities. This framework provides a nationally-
consistent approach for classifying watershed conditions and allows us 
to track the number of watersheds that move to an improved condition in 
the long term.
---------------------------------------------------------------------------
    \1\ Integrated Resource Restoration includes activities 
accomplished through the following previous budget line items: Wildlife 
& Fisheries Habitat Management, Vegetation & Watershed Management, 
Forest Products, Legacy Roads & Trails, Roads Decommissioning, 
Hazardous Fuels in non-wildland urban interface areas, and 
Rehabilitation & Restoration.
---------------------------------------------------------------------------
    In FY 2011, we restored or enhanced over 4.9 million acres of both 
public and private lands. We will continue to invest in and accomplish 
restoration on the ground. In FY 2013, through Integrated Resource 
Restoration we propose to restore or sustain 2.6 million acres on 
National Forest System lands; provide 2.8 billion board feet of timber; 
decommission over 2,000 miles of road; and restore or enhance 2,750 
miles of stream habitat. By focusing on restoration outcomes, the 
Integrated Resource Restoration program empowers Forest Service 
managers and local communities to find the best, most-efficient way to 
meet their ecological, economic and social objectives. For example, a 
landscape thinning project may be accomplished under a combination of 
timber sales and stewardship contracts which reduces the threat of 
catastrophic wildfire, improves forest and watershed health and 
resilience, and removes unneeded erosion prone roads. These outcomes 
help reduce risk from threats like fire, insects, and diseases; provide 
clean, low-cost drinking water to communities; and maintain local 
infrastructure and jobs by creating economic opportunities such as uses 
for biomass and other forest products.
    Our Forest Health Management program provides insect, disease, and 
invasive plant survey and monitoring information on forest health 
conditions on Federal and non-Federal (Cooperative) lands and provides 
technical and financial assistance to prevent, suppress, and control 
outbreaks threatening forest resources and watershed conditions. Forest 
Health Management helps to implement the States' Forest Action Plans 
and focuses on the highest priority areas and on high-priority pests, 
as identified by mapping and surveys. In FY 2013, Forest Health 
Management will continue to utilize science, active land management, 
and technology transfer expertise to restore and sustain forest 
landscapes, across urban, private, State, Tribal, and Federal forests, 
and create private sector jobs because of the expertise required to 
carry out this work.
    The Collaborative Forest Landscape Restoration Program is a high-
priority program that embodies our integrative, collaborative, 
landscape-scale restoration focus. In FY 2011, Collaborative Forest 
Landscape Restoration projects implemented treatments to restore 
ecosystem resilience and adaptive capacity while generating forest 
products to help support local infrastructure and economies. Forest 
vegetation was improved or established on over 26,000 acres; 121 
million board feet of timber was sold; and approximately 268,000 green 
tons of woody biomass was made available for biomass or bioenergy-
related production. Cooperators played a substantial role in FY 2011 by 
providing over $8 million in additional funding. The FY 2013 request 
supports the community-based Collaborative Forest Landscape Restoration 
projects chosen in FY 2010 and FY 2012. The Collaborative Forest 
Landscape Restoration Program is creating job stability by supplying a 
reliable wood and biomass supply for forest products and bioenergy 
production; improving forest health and wildlife habitat; and reducing 
fire suppression costs in overgrown forests.
Research Priorities
    The Forest Service houses the world's largest forestry research 
organization. We conduct research that develops new technologies and 
brings cutting edge science to bear on the sustainable management of 
the Nation's forests and rangelands. Long-term research from our 
experimental forests and rangelands contributes to an understanding of 
the impacts of forest disturbance on the natural and cultural resources 
of U.S. landscapes. This knowledge assists public and private land 
managers in identifying strategies to mitigate and adapt to forest 
stressors. Rigorous, applied research is also key to supporting new and 
emerging markets with innovations that enhance and diversify the forest 
products industry. Private investment in the forestry sector relies on 
Forest Service research. Finally, our social science research is 
critical to appropriately aligning agency activities with society's 
values and priorities for the Nation's natural resources and public 
lands.
    The proposed funding will maintain essential levels of research in 
our high-priority and strategic program areas to ensure that we 
develop, apply, and deliver new knowledge and technologies that support 
sustainable management objectives. One high-priority program is Forest 
Inventory and Analysis, which provides the resource data, analysis, and 
tools needed to assess current status and trends of forests; management 
options and impacts; and threats such as fire, insects, and disease. In 
FY 2011, the Forest Service's Research and Development deputy area 
implemented the Forest Inventory and Analysis annual forest sampling in 
all 50 States (though we have not been able to sample interior Alaska), 
providing accessible data for 96 percent of the Nation. The data 
provides important information for private forest landowners to use in 
developing management objectives for sustainable management of private 
forests. In FY 2013, Forest Inventory and Analysis will continue in all 
50 States and seven reports will be published.
Planning, Monitoring, and Analysis Priorities
    Restoration efforts are guided by a continuous cycle of assessment, 
project planning and implementation, and adaptation based on 
information from inventory and monitoring. Consistent with the Forest 
Service's priority of landscape-scale conservation, our proposed 
Planning Rule emphasizes a collaborative, science-based approach with 
broad-scale monitoring strategies at the regional and national level 
for the National Forest System. Forest Service managers collaborate 
with a wide variety of stakeholders to consider all interests affected 
or influenced by land management planning and project level 
implementation decisions. We are integrating and improving monitoring 
databases to enhance efficiency and transparency. These monitoring data 
provide baseline information from which managers plan the mix of goods 
and services for individual national forests and frame objectives for 
planning and subsequent restoration activities. The data helps managers 
set conservation objectives to sustain the health, diversity, and 
productivity of the National Forest System.
    This budget proposes consolidation of the Land Management Planning 
and Inventory and Monitoring programs to form the single, integrated 
program of Land Management Planning Assessments and Monitoring. This 
new budget structure highlights the connectedness of these activities 
under the proposed Planning Rule. High-priority resource issues include 
watershed and ecological conditions; habitat needs for a number of 
species; visitor use and recreation objectives; forest disturbances; 
and other local, regional and national objectives. Forest Service units 
completed 58 plan assessments in FY 2011-an initial step for 
determining the need to revise or amend land management plans in 
response to changing ecological, social, and economic conditions.
                           communities theme
    Communities continue to be a priority for the Forest Service in FY 
2013. We are committed to engaging communities across the Nation to 
reconnect with the outdoors, expand recreation benefits, and harness 
the many economic opportunities our land management activities create 
in a way that supports diverse employment in forest-dependent 
communities. As part of the President's FY 2013 budget, we request 
reauthorization of the Secure Rural Schools and Community Self-
Determination Act of 2000 for five years. The FY 2013 proposal supports 
rural communities through assuming enactment of the FY 2012 President's 
proposed reauthorization through mandatory funding.
    We continue to develop successful collaboration with 
municipalities, non-governmental organizations, and private companies 
at many levels. Through approximately 7,800 grants and agreements in FY 
2011, we engaged a wide circle of partners in land management projects 
and activities, leveraging agency investment for an additional $616 
million in partner contributions. In FY 2013, this collaboration will 
continue to expand recreation opportunities, reconnect people with the 
outdoors, and use land management activities to create employment and 
sustain communities. Our budget request includes proposed language that 
would authorize the Secretary to enter into agreements with 
interpretive associations (including scientific, historical, 
educational, and other societies, organizations, and associations) to 
enhance visitor awareness and knowledge of the Nation's natural 
resources and cultural heritage, and to enhance and leverage our 
collective interpretative efforts. Based on our current efforts, we 
know that increasing collaboration with local communities can move 
conservation efforts from a scale of thousands of acres to hundreds of 
thousands of acres. The President's FY 2013 Budget strategically 
allocates resources to support exemplary local stewardship and 
collaboration models and to catalyze new partnerships and innovations.
Landscape-Scale Conservation Priorities
    Restoration projects across broad Federal landscapes, such as the 
Collaborative Forest Landscape Restoration Program, are not sufficient 
alone to address the restoration needs and challenges of today. The 
Forest Service's approach to land management focuses on landscape-scale 
outcomes through cross-boundary landscape conservation. We consider 
current and desired resource conditions across all ownerships-putting 
national forests and grasslands in the broader social, economic, and 
ecological context of the entire landscapes. Considering the well-being 
of communities adjacent to national forests, as well as urban 
populations that depend on forest-derived ecosystem services such as 
water filtration, is a top priority
    In FY 2011, our State and Private Forestry programs competitively 
allocated $19.8 million to State Foresters, supporting 72 projects in 
47 states.\2\ These allocations enable the Forest Service to leverage 
over $21 million in partners dollars and in-kind contributions. In FY 
2013, we propose to build on the success of our recent redesign of 
State and Private Forestry by combining funds into a Landscape Scale 
Restoration program to continue our work with the State Foresters and 
engage multiple landowners across boundaries. This program helps 
address challenges like forest fragmentation and the conversion of 
forestland due to urbanization and other land uses. Through competitive 
grants, it will implement innovative projects that address the greatest 
threats to forest sustainability, as identified by States in their 
Forest Action Plans.
---------------------------------------------------------------------------
    \2\ The $19.8 million includes Wildland Fire Management 
allocations.
---------------------------------------------------------------------------
    The Forest Legacy Program is an incentive-based approach that uses 
easements to permanently protect non-Federal forest lands vital for 
wildlife habitat and rural jobs. The focus is on forest lands at risk 
of conversion to other (non-forest) land uses. To date, more than two 
million forested acres have been protected from conversion, ensuring a 
robust natural infrastructure to support rural jobs in the forest 
sector.
    Through Land Acquisition, we work to consolidate non-Forest Service 
properties within or adjacent to national forest boundaries. These 
acquisitions protect critical ecosystem connectivity, enhance visitor 
access, and reduce expenditures associated with boundary management and 
fire suppression. This request includes up to $25 million for support 
of the Federal Interagency Collaborative Land and Water Conservation 
Fund initiative. This interagency partnership with the Department of 
the Interior will guide acquisitions in support of objectives set by 
the America's Great Outdoors initiative, achieving targeted, 
coordinated Federal acquisitions that are locally-driven and supported 
by local governments. The request also includes up to $5 million to 
acquire land to open up additional access for recreational purposes, 
specifically to increase priority recreation access to National Forests 
System lands. The Forest Service will use the funds to acquire parcels 
that provide access to National Forest System lands whereby access is 
not currently available or is impeded.
    Just as we recognize the importance of conserving working forest 
lands in rural areas, we also support the creation of community forests 
that connect urban populations to nearby outdoor areas. Through the 
Community Forest and Open Space Program, we fund cost-share (matching) 
grants for the acquisition of community forests that provide public 
recreation and watershed benefits. Such benefits include enhanced 
drinking water quality, wildlife habitat, forest management jobs, and 
opportunities for wildlife viewing, hunting, fishing, and other outdoor 
experiences readily accessible to urban populations. In October 2011, 
the Forest Service issued regulations to ensure a consistent and 
transparent program. We are in the process of soliciting applications 
to award the first projects.
Recreation and Trails Priorities
    Forest Service lands are a public treasure providing unparalleled 
outdoor recreation opportunities. Population growth and loss of open 
spaces contribute to ever-greater demand for high-quality recreation 
opportunities. Annually, more than 170 million visitors enjoy 
activities such as camping, picnicking, skiing, fishing, and hunting. 
The Recreation, Heritage and Wilderness program provides the 
interpretive, outreach and infrastructure needs vital to connecting 
Americans to the great outdoors.
    In response to the America's Great Outdoors initiative, we are 
improving recreational access and expanding opportunities for youth and 
diverse populations. The Youth Conservation Corps creates jobs, as do 
expanded opportunities for private sector outfitters, guides, ski 
areas, and resorts. Through the Federal Interagency Council on Outdoor 
Recreation, we are implementing actions to eliminate redundancy and 
create seamless programs between the Federal agencies to increase 
recreation opportunities.
    Our Trails program ensures public safety and backcountry access 
through the operation, maintenance, rehabilitation, and improvement of 
National Forest System trails, serving a wide constituency of visitors 
at a relatively low cost. In FY 2013, we are prioritizing the 
designation of trails for motorized use, consistent with the Travel 
Management Rule. Our trail system also accommodates non-motorized uses 
such as cross-country skiing, hiking, hunting, fishing, wildlife 
viewing, horseback riding, and mountain biking. In FY 2011, partners 
contributed approximately $7 million and maintained almost 5,500 miles 
of national and scenic trails. Through strengthened partnerships in FY 
2013, we will emphasize trail stewardship activities and youth 
programs.
    Our proposed legislative language to make permanent our authority 
on Administration of Rights-of-Way and Land Uses would ensure timely 
customer service, reduce the potential liability to the United States 
associated with uses on National Forest System lands under an expired 
authorization, and enable us to accept new applications to expand our 
support for local and regional economies. Special Uses enable a wide 
range of public services that support thousands of jobs, from large-
scale energy and communication transmission to small-scale outfitters 
and guides. Processing these permit applications is time intensive and 
expensive. Recovered funds will remain at the local office of 
collection to enable more-timely service to permit holders and 
applicants. The existing authority expires on September 30, 2012.
    The Forest Service assists in developing and sustaining urban 
forest infrastructure within cities, as well as connecting urban 
residents-especially youth-to recreation experiences in national 
forests. With more than 83 percent of all Americans living in 
metropolitan areas, the Forest Service Urban and Community Forestry 
program supports the active management of forests and trees in over 
7,000 communities, reaching 194 million people in FY 2011. This program 
seeks to optimize benefits from urban forests by planting trees for 
carbon sequestration and energy conservation objectives. Forest Service 
Research and Development helps to create more livable and desirable 
urban areas and improve urban ecosystem services, like cleaner city air 
and water, through leading science and new technology. In New York 
City, for example, the Forest Service's iTree tool provided baseline 
information about trees that has been a critical foundation for the 
MillionTreesNYC campaign. The Conservation Education program-through 
initiatives like ``Children's Forests'' and ``More Kids in the 
Woods''.builds on both long-term and new partnerships. In FY 2011, over 
5 million children and families participated in environmental 
education, recreation and related literacy programs on public lands and 
waters, increasing their understanding of the natural world and its 
benefits.
Facilities and Roads Maintenance Priorities
    Maintenance of physical infrastructure-including the best and safe 
use of over 40,200 buildings for administrative, recreation-related, 
and other uses, approximately 373,000 miles of roads (102,000 miles are 
closed but provide options for future use) and 6,200 bridges-is an 
important priority in fulfilling the Forest Service mission. 
Maintaining our facilities saves money over time and provides for safe, 
pleasurable, and accessible sites for the public's enjoyment while 
recreating. In FY 2013, strategic investments in facilities and 
infrastructure maintenance will reduce our agency's environmental 
footprint and save money by lowering energy costs. This budget request 
proposes deferring new facilities construction when other cost-
effective and reasonable options exist.
    This budget request also prioritizes road maintenance to ensure we 
protect water quality, meet Highway Safety Act standards, and meet the 
need for motorized use, as identified on Forest Service motor vehicle 
use maps. We also emphasize replacing deficient bridges, upgrading 
stream crossings, and providing a transportation system to and from 
timber and stewardship project sites that support local jobs and our 
collaborative restoration priorities.
                               fire theme
    Our final priority for the FY 2013 budget request reflects the 
President's commitment to a responsible budget for wildland fire 
management. We will continue to partner with States, communities, and 
other Federal agencies to maximize our suppression capabilities and 
support community efforts to reduce direct threats from wild fires.
    Wildland fire is a natural and necessary component of restoring 
ecosystem resilience in fire-adapted ecosystems. In many places, drier 
conditions and longer fire seasons, along with invasive species like 
cheatgrass, have further altered the timing and pattern of fire, making 
fires bigger and harder to suppress. Addressing these challenges will 
reduce fire risk to communities and maintain and create jobs through 
activities that restore ecosystem resilience.
    The cost and complexity of both fuels treatments to reduce fire 
risk and wildfire suppression have gone up due to growing numbers of 
housing developments adjacent to wildlands and other factors. In this 
context of more costly fire management, we continue to refine our use 
of decision-support tools. These tools help us allocate resources more 
efficiently and to adopt appropriate risk management principles. 
Further, we responded to the Federal Land Assistance, Management and 
Enhancement (FLAME) Act of 2009 by collaborating broadly to develop the 
new National Cohesive Wildland Fire Strategy. The strategy is designed 
to:

  <bullet> Restore and maintain resilient landscapes at a regional and 
        sub-regional scale;
  <bullet> Create fire-adapted communities; and
  <bullet> Respond to wildfire effectively through partnerships among 
        local, State, Tribal and Federal fire organizations.

    The Nation depends on the Forest Service to take proactive measures 
to reduce the threat of wildfire. By working proactively to re-
establish fire-adapted ecosystems, we can reduce the costs associated 
with catastrophic wildfire. The proposed budget for FY 2013 would 
direct fire management resources toward the highest priority areas 
while maximizing cost-effectiveness. We are ready to protect life, 
property and community, and public safety.
Fuels Reduction Priorities
    The Hazardous Fuels budget line item for FY 2013 focuses on 
treatments in the wildland-urban interface and other high priority 
areas with a target of one million acres vital to protecting lives, 
property and public infrastructure. The priority for these funds is in 
wildland-urban interface communities that are working to achieve 
Firewise standards, have demonstrated local investment, and that have 
developed a Community Wildfire Protection Plan. The agency will 
continue to emphasize the importance of Community Wildfire Protection 
Plans by prioritizing hazardous fuels treatments in Wildland Urban 
Interface areas that are indentified in these plans. This funding is 
also used for grants that encourage woody biomass utilization and to 
facilitate market development for the biomass removed from the 
landscape through fuels treatments.
    Biomass for energy is an important byproduct of hazardous fuels 
reduction and restoration work. Currently one-quarter of all renewable 
energy consumption comes from wood. Biomass utilization is important 
because it helps diversify the forest products industry and creates new 
markets that ensure alternative uses for material that would otherwise 
be piled or burned at the treatment site. With active management, 
America's forests can sustainably supply woody biomass for fuels and 
high-value chemicals and help meet national energy, environmental, and 
employment goals.
    In FY 2013, the Forest Service plans to reach out to municipal 
water providers and pursue additional investments to protect water 
supplies. For example, three of the five major Front Range water 
utilities (in Denver, Aurora, and Colorado Springs) have invested 
nearly $34 million in forest thinning treatments to reduce wildfire 
risks. Our strategy is to attract investments from all Front Range 
cities and to substantially increase amounts invested by those cities 
and other partners through matching Forest Service funds.
    The hazardous fuels management efforts compliment restoration 
activities conducted through Integrated Resource Restoration and the 
Collaborative Forest Landscape Restoration Program to reduce fuels, 
restore forest landscapes, and protect communities. These projects 
leverage partner investments through innovative collaboration to 
restore landscape resilience across 50,000 acres or more. Contracted 
services for fuels reduction in core forest zones provide jobs, as do 
the forest products and woody biomass utilization activities that 
result from fuels removal and reduction.
Preparedness Priorities
    The second way we are responsibly addressing wildland fire 
management with this budget request is through our Preparedness 
program, which ensures the capability to protect life, property, and 
natural resources while assuring an appropriate, risk informed and 
effective response to wildfires, consistent with land and resource 
management objectives.
    The preparedness program pre-positions resources as needed to 
ensure an appropriate, risk-informed, and effective wildfire response. 
This budget also includes $24 million to pay for the increased costs of 
modernizing the firefighting large airtanker fleet. We are soliciting 
bids for modern air tankers to complement the remaining 11 in our 
fleet.
Suppression Priorities
    The suppression program combined with the FLAME Wildfire 
Suppression Reserve Fund, meets the funding level at the 10-year 
average cost of suppression for FY 2013. Wildland fires continue to be 
larger and more difficult to suppress due to many factors including 
longer fire seasons, fuel accumulation, and the increased size and 
complexity of housing developments adjacent to or in forested lands.
    In FY 2011, the Forest Service contained over 97 percent of the 
fires we managed during initial attack. Wildfire response decision 
making is evolving based on risk-informed analysis that reduces 
exposure to wildland firefighters while ensuring that high-value 
resources are protected. The results of these decisions allow us to 
manage fires more cost-effectively while achieving agency land 
management objectives by enabling fire to play its natural role in 
restoring landscapes. For FY 2013, the Suppression, Preparedness and 
FLAME budget request continues to emphasize our efforts related to 
strategic risk assessment and programs to improve wildland fire 
operational decisions and meet overriding objectives of maintaining 
public and firefighter safety. These efforts are expected to result in 
significant increases in the effective and efficient use of agency 
resources.
    For the few fires that escaped initial attack, the percentage that 
exceeded expected containment costs fell from 39.7 percent in FY 2010 
to 20.8 percent in FY 2011, a notable achievement in responsibly 
budgeting for fire suppression. Implementing the agency's broader 
restoration goals will lead to further progress. Given the highly 
variable nature of fire seasons from year to year, the FLAME Wildfire 
Suppression Reserve Fund ensures our ability to cover the cost of 
large, complex fires that escape initial attack.
             gaining efficiencies and cost control measures
    We must be efficient and effective in meeting our mission and 
delivering services to the American people. We have been gaining 
efficiencies, managing costs and our workforce to achieve our mission 
in the past and will continue to do so. We are making difficult choices 
to work better and leaner to live within constrained budgets. The 
Forest Service's FY 2012 target for cost savings is $44 million. 
Reduced travel accounts for $14 million of these savings. An additional 
$30 million is achieved through new acquisition management procedures 
including the use of strategic sourcing, competitive and/or 
performance-based contracts, and ongoing training of contracting staff 
to better manage contracts.
    Our efforts to gain efficiency in FY 2012 and this FY 2013 budget 
request focus on implementing the President's Executive Order, 
Promoting Efficient Spending. We identified reduced spending levels in 
travel, information technology, printing, fleet and promotional items. 
We have planned a $100 million reduction in cost pools over the course 
of FY 2013 and FY 2014. We are also implementing the USDA 
Administrative Solutions Project to reduce redundancies and take 
advantage of existing resources across USDA. We will also continue our 
strategic investments in safety and cultural transformation for our 
employees. These efforts will enable employees to spend less time on 
operational functions and more time on priority work in a safe, healthy 
and productive manner. We expect these efforts to result in costs 
savings in the future. We also estimate that our workforce will be 
reduced by nearly 1,500 full-time equivalents between FY 2011 and FY 
2013. This level of reduction is within our average annual attrition 
rate. We will continue to manage our workforce and organizational 
changes to provide service at the local level.
                               conclusion
    The Forest Service's fiscal year 2013 President's Budget aligns 
with priorities set by the Administration and the Department of 
Agriculture while balancing the need for fiscal restraint. The 
magnitude and urgency of forest restoration work, along with the demand 
for safe, accessible outdoor recreation opportunities, are growing in a 
context of declining budgets. This means that the agency will face 
unprecedented fiscal challenges in the next few years. The Forest 
Service must act strategically and tackle fiscal challenges directly, 
focusing our resources on continuing to provide services and goods to 
the American public.
    Through landscape-scale conservation, our three funding priorities 
of restoration, communities, and fire will pass on to future 
generations the water, wildlife habitat, renewable resources, scenic 
beauty, and other natural riches that Americans enjoy today from their 
forests and grasslands.

    The Chairman. Thank you very much, Chief Tidwell. Let me 
start with 3 questions related to my home State.
    I think I said in the opening statement I made that I 
strongly support the full funding that you asked for for the 
CFLRP program, the Collaborative Forest Landscape Restoration 
program. As I think of that program, it is a follow onto a 
smaller program we have had in New Mexico for some time, the 
Collaborative Forest Restoration program. That has allowed us 
to work with local communities to have a great many individual 
projects to help restore the forests of our State.
    I'm disappointed. As I explained to you yesterday that the 
Administration has asked for a cut in the funding there. It's a 
very small program.
    It's a $5 million a year program. I think the request was 
it be cut. I hope you can work with me to see if we can't 
revisit that and persuade the appropriators to do otherwise.
    Mr. Tidwell. Senator, I'll be glad to work with you. It's, 
as I mentioned, we have to make some difficult choices, you 
know, with budgets like this. But the program you're referring 
to has been a tremendous success.
    I think it's, over the years, there's been over 150 
proposals, projects that we've moved forward with. It's created 
hundreds of additional jobs. I think it's involved close to 500 
different partners.
    Because of the success of that program in New Mexico, I 
think it has allowed us so that the Collaborative Forest 
Landscape Restoration program is proving to be so successful 
across the country. It's because of the efforts that you 
started there in New Mexico. So you have my commitment to look 
to work with you and the Appropriations Committee to see if we 
can find some additional funding.
    The Chairman. That would be greatly appreciated.
    Let me ask also about this New Mexico Forest and Watershed 
Restoration Institute. I notice you're requesting $1.5 million 
to fund these institutes in New Mexico, Colorado and Arizona. 
I'm glad to see that funding is requested.
    Unfortunately the funding allocation is fairly skewed. 
We've got $2 million requested for fiscal year 2011. Fiscal 
year 2013 we've got--well each year until now there has been 5 
or 6 times as much money going to Arizona as there has been to 
Senator Udall's State, Colorado or to my State of New Mexico. I 
would hope that we could have a more equitable allocation of 
that funding.
    Is this something that you're still looking at or how do 
you anticipate that playing out?
    Mr. Tidwell. The funding between the 3 States is 
established based on direction from, I think it was back in the 
2006 Appropriations bill or it might have been the 2008. But to 
be able to change that mix we'll need to have to basically 
develop a different formula to spread the money. Of course, 
we'd be glad to work with you on trying to find the--if we need 
to make a change in how to spread that money.
    All 3, you know, universities that we work with do 
outstanding work for us. But you did point out that over the 
years and especially with some reduced funding that, you know, 
the majority of it is still going to one State.
    The Chairman. We will be in touch with you about how to try 
to correct that in the future.
    The Los Conchas fire recovery is something that's still 
very much on the minds of people in my State. We had a very bad 
fire, as you know. It burned more than 156,000 acres of land in 
and around Los Alamos and Santa Fe National Forest, Bandolier 
National Monument, the Valles Caldera and the Santa Clara 
reservation was scorched very substantially. Could you give me 
a little update on what the Forest Service is doing to continue 
trying to help that area recover from that Los Conchas fire?
    Mr. Tidwell. We're continuing to finish up the burn area 
emergency rehab work that we started last year. Be able to 
finish that this year. Then want to, you know, continue to work 
to see if how we can move forward to do more of the restoration 
work on those lands to put us in a better position for the, you 
know, the next fire. So we're going to complete the emergency 
burn rehab work. It will be completed this year with ongoing 
efforts to do some additional restoration.
    I really want to use this as a chance to kind of point out 
how things are changing. A few years ago we had another fire 
that threatened a lab. That fire and it burned about 40,000 
acres. It took that fire about 7 days to burn 40,000 acres.
    With Los Conchas it too, burned 40,000 acres early in the 
fire. It took 12 hours. I just point this out as how things are 
changing out on the landscapes today with the extended droughts 
that we're dealing with and the need for us to find more and 
more ways to do more of this restoration work so that these 
communities are in a better position to be able to deal with 
these large wildfires that we're going to have to continue to 
have to deal with.
    The Chairman. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Again, thank you, Chief. You know, your comments this 
morning in your testimony focus a lot on the recreational 
opportunities through our public lands and what the Forest 
Service is able to offer. I mentioned the number of employees 
through the Forest Service.
    As I said, I was up in the State the week before last and 
spent most of my time in the Tongass. I was in Yakutat, Juneau, 
Ketchikan. I will suggest to you that there is sure not much 
tourism going on in a town like Yakutat between about oh, 
September through maybe May when you've got 15 feet of snow 
around you and you can't even see the tops of the chalets that 
the Forest Service have opened. It's pretty tough to think 
about tourism.
    So as significant as that is, I think we need to recognize 
that we have many communities, many parts of the country where 
tourism on a year round basis is simply not possible. I worry. 
I worry that if we're not successful with things like extending 
Secure Rural Schools funding that a community like Yakutat, 
where two-thirds of that school budget comes from Secure Rural 
Schools funding, that your employees will be coming to you 
seeking a hardship waiver so that they can move their families 
to another community where they've got a school.
    It's a tough situation for us. I think you know because 
you've got good folks on the ground that are telling you. But 
as we think about those things that are real and possible, I 
think we need to appreciate that in some parts of the country, 
and particularly in the Tongass, it's tough to find that year 
round recreational opportunity.
    Speaking of the Forest Timber sale program there in the 
Tongass, I don't think that the current Forest Service plan for 
the Tongass is implementable. The Forest Service prepared an 
analysis that estimated that only 18 percent of the mature 
timber in the plan will support economic timber sales. The 
Forest Service in Alaska have achieved only about 20 percent of 
their planned timber sale volume. They only plan to offer about 
half of the allowable sale of quantity in the first place.
    You've heard my pleas, if you will, about what's going on 
with our saw mills, their capacity, their ability to get timber 
supply. But we don't have much that is left. We've got a few 
mom and pop mills. They're trying hard to hold on. But it's due 
primarily to a lack of timber supply.
    What immediate actions can you tell me about? You know who 
I'm talking about. It's Viking. It's some of the others.
    What can I go back to them with that gives them some 
assurance that we're not going to lose the last remaining mills 
in Southeast? Start to restore some of those that have been 
lost? What's our action plan?
    Mr. Tidwell. Our action plan is to continue the work that 
we've started to move into being able to use the second growth 
along with----
    Senator Murkowski. Do you think that we're ready for the 
second growth?
    Mr. Tidwell. Yes.
    Senator Murkowski. I mean, we keep talking about these 
transition plans, but our reality is that it sounds good on 
paper. But actually going out there and implementing it has 
been exceedingly difficult.
    Mr. Tidwell. We awarded 3 stewardship contracts last year. 
One of those was in the second growth/young growth. It was a 
very successful stewardship projects.
    We harvested 7 and a half million board feet. It produced 
an additional $600,000 for other restoration work. So I think 
that was an essential project so that we could demonstrate that 
not only is there a market for this wood. But we can put 
packages together that are economically viable.
    So for this coming year we're--the target for the Tongass 
is at 80 million board feet. They indicate that they're on 
track to be able to put that amount of material out. There's 
currently about 100 million board feet that's under contract 
that, you know, for the existing mail up there in the one 
logging, the large logging company there.
    We're fortunate that in Alaska they have the option to be 
able to export, you know, some of the material that provides an 
additional market because that's one of the things we continue 
to struggle with is----
    Senator Murkowski. That's why the Sealaska bill is as 
significant as it is because it does allow for that export 
market.
    Mr. Tidwell. Yes, yes. We're committed to getting that 
Sealaska completed to fulfill our legal requirements and also 
to be able to move forward together with the movement or the 
move into the second growth. I think it's an area that, not 
only with the Forest Service offering more sales on that type 
of material, but along with what Sealaska has indicated they 
want to do. It will help actually create additional markets, 
you know, for the second growth.
    So we're optimistic. Sealaska has had a successful sale in 
the second growth. We've now shown that it will work with the 
stewardship sales.
    So those are the things that we want to continue to build 
on. Tourism is important in Alaska, like it is in all of our 
States. But it's essential we have a mix of economic 
activities.
    Our focus is going to be to continue to do what we can so 
that the wood products industry helps to sustain those 
communities. It's going to take, I think, a mix of every 
economic activity that we have available to be able to have 
sustainable communities in the Southeast Alaska. That's what 
we're going to continue to focus on.
    Senator Murkowski. My time is over. But I'll come back to 
this question when we do second round. Thank you.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, Chief. I want to turn to a topic that's 
familiar to both you and me. That's the bark beetle epidemic in 
my State, but more broadly all over the west and wildfire.
    In the wildfire management budget it looks to me like 
hazardous fuels sees a 24 percent cut, about $74 million. This 
concerns me as you can imagine. We need to reduce hazardous 
fuels, particularly where wildfire poses real risks to water 
storage projects, transmission lines. You know the list.
    The Western bark beetle strategy which you issued last 
summer has a goal of treating more acreage every year. Can you 
talk about how you plan to meet the goals in the bark beetle 
strategy while protecting the areas most at risk for wildfire?
    Mr. Tidwell. Yes, Senator.
    First, our request for hazardous fuels is the same request 
that we received in FY 2012. The difference there is that 
there's a portion of it that's included in our request for the 
Integrated Resource Restoration. But if you look at the funding 
it's available in the IRR budget line item plus what we have in 
hazardous fuels.
    It's equal to what we have, what we received in FY 2012. So 
we have, basically, a stable request for funding.
    In addition on the bark beetle strategy with our request it 
will allow us to continue to dedicate about $100 million to the 
bark beetle there in the Western States which includes, of 
course, Colorado, Wyoming, South Dakota, Idaho and Montana and 
Oregon and Washington. But we're going to maintain that 
commitment with expectations that we'll be able to continue to 
get more work done, more acres treated because the bark 
beetles, where the expansion has started to slow a little bit, 
we're still seeing about an additional 600,000 acres infested 
each year.
    So we're going to have to continue to maintain this focus 
for the next few years.
    Senator Udall. I want to extend a thank you to the Forest 
Service for working in Colorado in response to the call I put 
forth to allow mutual cancelation of some timber sale 
contracts. I think that's worked well. I hope we'll continue to 
look for other opportunities to do that.
    You've helped this. Senator Murkowski talked about her 
State and our State in preserving these small saw mills which 
provide jobs and are a key part of forest health management. We 
could have the discussion further about timber itself. But 
thank you for that.
    There's a new report, your new report, increasing the pace 
of restoration and job creation in our National Forests. It 
talks a lot about how we expand the market for forest products 
from our National Forests. Can you give us some examples of how 
this has worked, or will work on the intermountain west because 
this is just crucial?
    As you know the private sector is key to dealing with this 
epidemic.
    Mr. Tidwell. Our restoration report that we titled, 
Accelerating Restoration, is basically a report on what we've 
been doing the last couple years. Based on some of that 
additional flexibilities and some efficiencies that we've put 
into place, is that each year we've been able to get more and 
more work done even though we've had flat budgets. So that's 
why we were able to--I have the confidence to be able to 
indicate that we're going to continue to be able to get more 
acres created and more biomass, more saw logs produced over the 
next couple years based on the things that we're putting into 
place.
    I just wanted to--I just need to just kind of stress very 
quickly. The differences that we're making and I'll start with 
the Collaborative Forest Landscape Restoration projects. Those 
are proving to be tremendously successful. Not only because of 
the work that's being done, but the level of partnership and 
agreement that comes together around those projects.
    The key thing there is that we've, with those projects, we 
make a commitment of 10 years of funding. So it's a lot easier 
for folks then to understand that there's a greater chance that 
that work is going to get done each year. That the funding is 
going to be there. So it's easier for people to make the right 
investments in new equipment.
    The second thing is with NEPA efficiencies. We are learning 
how to do NEPA on much larger areas, across large landscapes. 
So instead of doing our NEPA on a few thousand acres, we're 
learning how to do that on like tens of thousands of acres 
which has increased once again, our efficiency. It also allows 
us to be able to put projects together and treat much larger 
areas.
    Our stewardship contracting, it's essential that we get 
that reauthorized. It's just absolutely necessary we be able to 
maintain that tool. When we have stewardship contracts there is 
more agreement. There is less appeals. There is less lawsuits. 
We get more work implemented.
    The other thing is just our overall efforts on 
collaboration. I cannot stress this enough the difference that 
this is making. We have examples all over the country now where 
these collaborative efforts have come together. Folks 
understand the type of work that needs to be done. Then we're 
able to really focus our NEPA on just the issues that are 
remaining. That's where we're able to also implement more work.
    Then the last thing is with our planning rule. That our 
preferred alternative we have out there is just essential to be 
able to build on these efficiencies to be able to have a rule 
that's going to be cost less. It's going to take a lot less 
time. In my view, provide a better framework for our planning 
in the future.
    So Senator, these are the things that we're counting on to 
be able to continue to be able to get more acres treated every 
year and to be able to--which is going to result in more 
biomass, more saw timber produced.
    Senator Udall. My time is expired. You anticipated my next 
question. I want us to keep working with you and your staff.
    I know Senator Shaheen and others on the committee have 
biomass electricity plants in their States. We'd like to 
accelerate the way in which we improve these plants, streamline 
procedures. I think you just spoke to that, but there's more to 
do because there are a lot of people willing and ready to do 
this. It also has a national security effect that's positive.
    Mr. Tidwell. Yes.
    Senator Udall. So look forward to working with you further. 
Thanks.
    Mr. Tidwell. Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. Thank 
you very much, Chief Tidwell for being here today.
    I wanted to follow up a little on what Senator Udall talked 
about the bark beetle and the concerns that we have as a 
neighbor of Colorado with what's happening there with the bark 
beetle which brings me to the issue of the Good Neighbor 
authority. There's been significant inaction on the part of the 
Forest Service on the Good Neighbor authority. I will tell you 
it's unacceptable.
    Good Neighbor authority exists in Colorado and in Utah. In 
my home State of Wyoming, we need and want the authority to 
fight the bark beetle and other forest health related problems. 
In May of last year, under Secretary Harris Sherman, testified 
in this room. He said, ``Good Neighbor Authority is an 
excellent program, a very helpful tool and it would not involve 
an extensive analysis.'' The Good Neighbor bill that we have is 
a bipartisan bill supported with Senator Johnson.
    On August 8th of last year my staff inquired about the 
analysis.
    On August 22nd, we received a reply that said that the 
analysis Mr. Sherman called for in his May testimony has now 
produced some findings and suggestions. We'll get you a short 
briefing paper that outlines them in a few days. That's what we 
were told August 8th of last year, in a few days.
    On January 6th of this year the staff, my staff, followed 
up again.
    It's now March. We still don't have anything from you.
    Are the same political barriers that we've seen with the 
Keystone pipeline preventing Good Neighbor Authority in forest 
health management under this proposal? I'm just shocked that 
we're waiting this long.
    Mr. Tidwell. Senator, I'll check to see why we haven't 
produced that information to you. We'll get it up to you right 
away.
    The Good Neighbor Authority is one that we've used in the 2 
States. It's worked very well for us. Do we want to take what 
we learned with the projects there in Utah and Colorado and as 
we move forward with it, even improve on it? Of course. But 
that's what we want to look at.
    So I'll get that information up to you as soon as I can.
    Senator Barrasso. The last time I heard it was going to be 
in the next few days and that was August 22nd. So you can 
imagine the concern that the people of Wyoming have as we 
continue to see the changes in our forests. Thank you.
    Now I want to move on to the Off-Highway Vehicle report. I 
have a copy of the Forest Service report titled, ``A 
Comprehensive Framework for Off-Highway Vehicle Trail 
Management.'' It states the report was developed to help trail 
managers, ``Corral the off-highway vehicle management dragon.'' 
That's how the report put out describes it.
    The report encourages the adoption of, ``best management 
practices for planning, implementing and monitoring trail 
projects.'' But who wrote these, ``Best management practices''? 
You actually published them in the appendix and it's the 
Wildlands CPR.
    You know, to have something written by this organization 
with their background and their goals, to me, it really 
undermines the credibility of the Forest Service. I want to 
know when the Forest Service first adopted and published best 
management practices supported by the groups who opposed 
motorized access and the use of off-highway vehicles.
    Mr. Tidwell. Our best management practices are what we have 
found to be the right things to be able to address issues, 
especially like with erosion and run off from drainage, you 
know, on trails. So those are our best management practices. We 
would of course, expect everyone to be supportive of those 
because they've proven to be very effective to address the 
issues. By following best management practices, it's easy then 
to be able to not only address the issues, but also be able to 
move forward and be able to implement the work.
    So I would hope that everyone would be supportive of those. 
So that's where our best management practices come from. It's 
what we've learned on the ground what works. We want to be able 
to have consistent application across the board.
    Senator Barrasso. As I read it, it seems to be biased and 
against any off-highway vehicle use is their approach.
    Next I wanted to go to the issue of secure rural schools. 
February of this year Senator Merkley stated the following on 
the Senate floor about the Secure Rural Schools program. He 
said Secure Rural Schools is not an entitlement program. It's a 
commitment our Federal Government made to rural forest 
communities and counties out of fairness and common sense when 
it determined that it would put environmental overlays over 
large blocks of forest land that were dedicated to timber 
production with the revenue shared with the local counties.
    So I'm curious, what is the Forest Service doing to limit 
the impact of these environmental overlays and increased timber 
production and revenue for these communities.
    Mr. Tidwell. Senator, we're committed to first, 
reauthorization of Secure Rural Schools. I personally worked on 
the first authorization of that. I know how important that 
funding is to our counties and boroughs.
    Second of all we want to continue to increase the amount of 
restoration work, timber harvest, activities on our National 
Forests because of the need. If you, in our restoration report 
that we put out a few weeks ago, we identify there's like 65, a 
minimum 65 to maybe 80 million acres where we need to do 
restoration work to improve the forest health. At a minimum 
there's over 12 million that we must, have to use, mechanical 
treatment. We have no other options.
    It's essential, for all the things that we're seeing, 
whether it's fire or insect and disease, is a need for us to 
get more of this work done. The results of our collaborative 
efforts that have been going on for the last few years are 
really starting to pay off in that we are moving forward in 
being able to implement more work, have more agreement, you 
know, less appeals, less lawsuits. So that's what we want to 
continue to build on.
    So we want to get Secure Rural Schools reauthorized, but at 
the same time we want to be able and we need to expand the 
amount of active management that's currently occurring in our 
National Forests. It's just driven by this need to restore the 
health and resiliency of these forests.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Thank you, Chief Tidwell, for your service and it's good to 
see you again.
    Last time you testified here you talked about, were talking 
about, the wildfires. You and I had a discussion about 
scientists who were basically saying that climate change is 
creating, will be creating, more intense, larger fires and that 
there's going to be a larger seasonal window now for fires. 40 
percent of your budget is now spent on forest fire issues.
    We had a discussion about the bark beetles. From my 
understanding some are making it through the winter at higher 
elevations than they used to because of climate change. Is that 
what your scientists have determined?
    Mr. Tidwell. Yes.
    Senator Franken. OK. So we talk a lot about every 
Administration official who comes to every committee I sit on, 
always talks about tough budget choices. I just want to have my 
friends on this committee, who throw doubts about climate 
change to make, to get them, to consider how much it has to do 
with the budget and how much we spend because of the effect of 
climate change.
    So many things are getting crowded out because you've got 
to work on fire suppression.
    So many things are getting crowded out because you've got 
to work on the bark beetle.
    I just want to--to me, it is so obvious the costs already 
of climate change that we're paying and that these are never 
factored in when we're talking about the cost of things like 
burning more coal or burning dirtier oil. This is why I'm so 
happy that The Chairman introduced the Clean Energy Standard. 
This debate that has been going on in this country and it 
saddens me sometimes when what your scientists are telling us 
is called a hoax.
    It's just, it seems like there is and I don't know if it's 
pull for political gain or if it's to curry favor with big 
donors who can fund Super PACs or what it is. But there is a 
climate change denial culture among my colleagues that I find 
very disturbing. So can you tell me what the scientists in the 
Forest Service are saying about the effect of climate change on 
these fires, on the bark beetles?
    Mr. Tidwell. Senator, we've been doing research on the 
effects of the changing climate to the vegetation on our 
Nation's forests for over 2 decades. When it comes to fire, 
yes, we're definitely seeing much longer fire seasons in many 
parts of the country. Another 60 to 70 days longer than what we 
used to experience.
    We're also seeing that we're having much more severe fire 
behavior than we've ever experienced in the past because part 
of it is the extended droughts that we're dealing with.
    The other thing about the effects of this changing climate 
is we're seeing this increase in disturbance. The increase in 
the frequency of disturbance events whether it's the floods, 
whether it's the droughts, the severity, the length, whether 
it's the wind storms, whether it's everything that's going on. 
That's another one of the, with this changing climate with the 
effects of this changing climate we're seeing more of these 
disturbance events. We have to continue to deal with.
    Also with, as you mentioned with bark beetle and there's 
numerous examples. But the bark beetle is probably one of the 
better examples of where this, a natural pest, you know, is now 
being able to survive at much higher elevations than we've ever 
had to deal with, that the species at those elevations have 
never had to deal with. We're also seeing these infestations go 
on for much longer periods of time than they ever did before 
because in the past it was usually we'd get a very cold winter, 
especially in the early part of winter that would really set 
back the bark beetle populations. That's what's always, kind 
of, kept it in check.
    We've had infestations in the past. But we've never had 
anything that's come close to the level of the infestation that 
we're currently experiencing. Part of it is definitely because 
of mild winters.
    So those are some of the things we're continuing to deal 
with. Then also to understand that, like in your part of the 
country, that how the, just the overall mix of our forests, the 
species mix, is going to change over time. Some of your country 
is going to become a little drier and a little bit warmer. So 
that we're seeing, you know, more probably red pine in your 
country and more oak.
    We need to understand that. So as we move forward with our 
prescriptions on how to manage this land that we understand 
those effects so that, you know, we can continue to have a 
healthy forest while dealing with the effects of a changing 
climate.
    Senator Franken. Thank you. My time is expired. Thank you, 
Mr. Chairman.
    But I just want my colleagues to really listen to this 
testimony and understand that climate change is real and 
actually has an effect. It actually has a cost. That when we 
make a calculus about what kind of mix of fuels that we use in 
this country and how much carbon we put in the air that it has 
an actual cost.
    Thank you.
    The Chairman. Senator Lee.
    Senator Lee. Thank you very much, Mr. Chairman. Welcome, 
Chief Tidwell. I appreciate your willingness to come and 
testify today.
    After reviewing your budget I commend you for consolidating 
a number of programs and making efforts to trim costs any way 
you can. I wonder whether these decreases in requested funding 
are enough given the current status of our financial condition 
as a country and as a government. I nevertheless commend you 
for the efforts that you have made.
    The timber industry in Region IV, the Intermountain Region, 
that includes my State of Utah, is really struggling. Over the 
last few years a lot of saw mills have either gone out of 
business or have gotten to the point where they likely will be 
going out of business soon. If the National Forest loses the 
remaining timber industry in this area, they'll lose an 
important management tool that in addition to being good for 
local economies and for our national economy, also helps to 
maintain healthy and productive forests.
    It's come to my attention that many of the saw mills in 
Region II have been experiencing similar problems. That's the 
region directly east of where we are in Region IV. As of August 
of last year I think you issued a decision to offer timber sale 
contract mutual cancellations within Region II.
    Can you explain a little bit more of the background and the 
circumstances in which certain contracts in Region II could be 
mutually canceled?
    Mr. Tidwell. Yes, Senator. There is a series of steps that 
we need to go through both on the purchaser's part and with the 
Forest Service to see if we've exhausted every other option 
before we pursue a mutual cancellation like we did in some of 
the sales there in Colorado. So our staff is already working 
with our staff out there in Utah to see if it's possible to be 
able to move forward.
    Your point on that we need to maintain our wood products 
and industries is just absolutely correct. That's the only way 
we're going to be able to get this work done that must be done. 
So we're very committed to do everything we can to maintain the 
existing infrastructure.
    So we want to work closely to see if we can't work through 
this to be able to do what we can to make sure that that mill 
in the southern part of your State can stay in operation.
    Senator Lee. OK. So if you're--it sounds like you're open 
to the possibility of pursuing this same approach in other 
regions, including possibly Region IV, as you pursued in Region 
II?
    Mr. Tidwell. Yes.
    Senator Lee. OK.
    We look forward to working with you on that. I really 
appreciate your willingness to keep an open mind on that and to 
consider that option. It is a matter of vital importance to all 
of us and especially to those who are affected directly by this 
industry. At a local level this could be devastating to an 
economy but actions like these can help soften the blow when we 
face conditions like they're facing right now.
    So thank you very much for coming in. I look forward to 
working with you on that. Thanks.
    The Chairman. Senator Johnson.
    Senator Johnson. Chief Tidwell, welcome and thank you for 
being here today. In your testimony you mentioned the bark 
beetle infestation in the West and the impacts of declining 
forest health. I appreciate the attention and resources that 
the Forest Service has dedicated to this issue, but we need to 
do more, especially in the Black Hills National Forest.
    The pine beetle epidemic in the Black Hills has grown in 
scope and severity and impact nearly a third of the forest. The 
1.2 million acres, that make up the Black Hills National 
Forest, are interspersed with more than 300,000 acres of 
private lands as well as other public resources like Mount 
Rushmore and Carson State Park. This is truly a landscape scale 
problem that has implications for forest health, tourism and 
our economies.
    My understanding is the Black Hills National Forest 
requested about $14 million in FY 2012 with a timber program 
target of 240 ccf to support beetle response. Ultimately the 
Black Hills expects to see about $9.3 million in FY 2012. While 
I recognize this is a significant funding I'm disappointed we 
couldn't come closer to making resources with capabilities.
    What can we expect from Fiscal Year 2013 budget for the 
beetle response in the Black Hills?
    Mr. Tidwell. Senator, we were not able to meet the full 
funding request from the one forest. That's probably true with 
every forest that we have across the country. But the Black 
Hills has done a great job of working with, you know, the local 
mill owners there to have one of our more successful programs 
that we have. To the point where in FY 2012, well actually, 
increase. We expect to increase the number of sales that we had 
over FY 2011 which is at some of the higher levels we've seen 
in the Black Hills and then be able to continue this in FY 
2013.
    One of the reasons we'll be able to do that is that we're 
developing a, what we call an adaptive environmental impact 
statement there in the Black Hills. A very large analysis or 
project or, excuse me. We're looking at a very large area and 
doing one analysis on that so that in the future as we see 
outbreaks of the bark beetles we won't have to do additional 
analysis. We'll be able to quickly move into that area. You 
know, put a cell out there so they can get in there and remove 
those trees.
    So this is going to be a significant improvement. It's one 
of the areas we want to use as a model about how to do this 
analysis, this concept of adaptive analysis, so that we could 
be more proactive to deal with the bark beetles. So I'd like to 
be able to say we're going to be doing more, but I'll tell you 
I'm very pleased with the amount of work we are getting done.
    Our folks on the ground, working with local loggers and the 
mill owners, I think are just doing an outstanding job. We 
have, I couldn't ask for better support from the State and from 
the counties. That everybody is coming together to deal with 
this issue that is so essential in the Black Hills like it is 
in the rest of the country.
    Senator Johnson. We were fortunate to have a relatively 
robust forest products industry in the Black Hills including 2 
saw mills in South Dakota and one in Wyoming. The Black Hills 
Forest Resource Association estimates there are about 1,500 
direct jobs and 28 manufacturing businesses throughout the 
region. They estimate the sales value of lumber and other wood 
products to be about $160 million.
    Could you elaborate or comment on the value of having 
active saw mills from both the forest health and economic 
perspective?
    Mr. Tidwell. Senator, having the infrastructure, the mill 
capacity, is essential for us to be able to do the work. 
There's just no way that they'll ever be enough appropriated 
funding to be able to restore these forests. So we need to have 
the mills to be able to process the material, the wood products 
industry, to be able to go out and do the biomass removal, the 
logging that needs to occur.
    In addition are the jobs. These are some of the, you know, 
essential jobs. There's several research articles that are out 
there that investment in forest restoration, you know, creates 
the most jobs verses a lot of other things that we can invest 
in.
    So not only is it a good investment. It's just absolutely 
necessary that we are able to keep the infrastructure in place, 
keep the mills working producing those jobs so that we can 
actually do the work that needs to be done on the forest.
    Senator Johnson. My time is expired. Thank you.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Thank you, Chief 
Tidwell and Ms. Spear for being here this morning.
    Let me begin by saying how much I appreciated the fact that 
you provided a slight increase in the budget to the Forest 
Legacy and the Community Forest and Open Space Conservation 
Programs. Those are both important in New Hampshire, 
particularly the Forest Legacy Program. As you pointed out 
talking about the collaborative effort to save open spaces and 
forests is something that we've done very well in New 
Hampshire. Those programs have been very important.
    I do want to focus first, though, on the White Mountain 
National Forest because it is part of the Northern Forest 
lands. It's critical, not just to the State of New Hampshire, 
but to so much of the Northeast. It stretches 800,000 acres and 
has about 6 million visitors annually. Is located within a 
day's drive of 70 million people which is why we have so many 
visitors. Had extensive damage as a result of tropical storm 
Irene, as I'm sure you know.
    Mr. Tidwell. Yes.
    Senator Shaheen. About $10 million in damage. They've been 
working very hard since the storm last year to try and get the 
trails open to address all of that damage. But are still 
waiting on funding that has been expected, I think, from the 
Emergency Relief or federally Owned Rails and Trails funding 
which is administered by the Federal Highway Administration. 
They've gotten about 350,000.
    I know the Forest Service has provided about a million on 
recovery efforts. But can you give us any hope that any more of 
that funding might be available in a timely way so that they 
can continue some of the work on these trails?
    Mr. Tidwell. We're looking at finding some additional 
funding. There's no way it will be able to come close to really 
their total request. But we do expect to be able to send some 
additional funding that way.
    They've, you know, they've just had to deal with a very 
unusual event, as you are well aware. The amount of flooding 
that occurred. In fact, that was from the hurricane, that part 
of the country got hit probably as hard as anyplace and having 
to deal with the aftermath of that.
    So we are, I expect, we'll be able to send some additional 
funding. It won't be everything that they need. But it should 
help a little bit.
    You know, just want to thank you for your support. It's 
everyone up there. The communities have just been outstanding. 
When this event hit, everybody pulled together.
    Talk about an all lands approach, people were not concerned 
about if this was county lands, private lands or Forest Service 
lands. Everybody pitched in together to be able to get the 
roads opened and to get some of the debris out of the streams 
to reduce the flooding. So I just want to thank you for your 
support and for everybody up there did such an outstanding job.
    Senator Shaheen. It really was a State and community and 
collaborative effort, as you point out. That's why it would be 
so helpful to be able to get some additional funding to 
continue some of that work.
    Mr. Tidwell. Yes.
    Senator Shaheen. Before the tourist season opens, as you 
know. They were able to get the main roads and some of the 
trails open before the foliage season started last fall, but 
there will be a huge impact if we can't get more of the work 
done.
    I want to switch to biomass. A number of my colleagues have 
raised the importance of the timber industry in their States. 
It is also very important in New Hampshire. We're the second 
most heavily forested State. It's the third largest industry in 
New Hampshire, the timber products industry.
    I know that the Administration has been important in 
supporting the development of renewable energy. But a place 
where I would like to see more support is with biomass and 
combined heat and power. Because that's a place where there is 
a lot of opportunity for us in New Hampshire and in parts of 
the Northeast where we're so heavily dependent on oil to be 
able to make some inroads that would significantly reduce our 
dependence on oil.
    So I wonder if you can give me any hope that there might be 
some support for the programs that are authorized in the 
budget, but have not been funded to provide some more 
initiatives in the area of combined heat and power, the 
community scale projects. We have several communities that 
would like to do it. If they had a little support they could go 
ahead and make that work.
    Mr. Tidwell. Senator, in addition to the other programs we 
have in FY 2012, we also have requested funding for the 
Community Wood Energy program that was part of the 2008 Farm 
bill and also for Forest Biomass to Energy program that both of 
these programs are going to help our communities understand the 
benefits and to provide the technical assistance and support 
for them to make those decisions about the investments. We're 
lucky that up in your State there at the Supervisor's office we 
have an excellent facility there with the biomass boiler that 
we have there at the Supervisor's office that provides all the 
energy for the Supervisor's office by burning wood pellets.
    Senator Shaheen. It's about 90 percent efficient.
    Mr. Tidwell. Yes. You know, and when it produces excess 
energy it's put onto the grid and then in a peak of the summer 
when they need to pull more energy off for air conditioning 
they're able to then pull that energy back off, the 
electricity, off the grid. It's an excellent example of what we 
can do. We want to be able to help folks understand.
    So these 2 other programs that we've requested funding in 
would help our communities be able to understand what's 
available, the technology. We'd be able to provide additional 
support so that they can make those decisions on where to 
invest with biofuels in the future.
    Senator Shaheen. Is there a dollar figure that you've 
attached to those programs?
    Mr. Tidwell. The Community Wood to Energy, it's about, a 
little over $4 million. Then the Forest Biomass to Energy it's 
$10 million.
    Senator Shaheen. Thank you.
    Mr. Tidwell. These would be additional programs though in 
addition to what we currently have in FY 2012.
    Senator Shaheen. Thank you, Mr. Chairman.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Thank you, Chief and thank you for your many courtesies. 
You always reach out. Keep us informed and we appreciate it.
    I wanted to ask you about the question of dwindling 
aviation resources for the fire season. My concern is that this 
year in particular we could be looking at a perfect storm. In 
effect, we'd have limited air tankers. We've got 4 helicopter 
bases closed in Oregon and California, snow packs being down, 
drought and temperatures already being up.
    As you know we're now in a situation where we've got 
substantially fewer air tankers. We're down from 44 to 
somewhere in the vicinity of 11. The press is reporting that 
these are museum quality air tankers where the manufacturer no 
longer even makes spare parts for repairs.
    So question one is what are we going to do this fire 
season, this particular fire season, where it looks like our 
capacity to fight these fires is atrophied to the point where 
there are real questions about whether we're going to be able 
to deal with this season. That's my first question.
    Mr. Tidwell. OK. Senator, we're short this coming year. 
We're already short 8 air tankers that we had relied on last 
year that will not be available.
    So in addition to the 11 that we have, we're also going to 
contract for 2 water scoopers this year. We'll have the one 
very large air tanker that's on a call when needed contract. 
We've also put out a request for proposals for 7 additional 
aircraft. We're optimistic that we'll have at least 3 of those 
will be operational this year and the other 4 will be 
operational in FY 2013.
    With that being said, this is not enough. From what we feel 
we need with large air tankers our strategy that we sent up to 
the Congress here a few weeks ago had a range in there of a 
minimum of 18 to 28 large air tankers. We feel that that is 
absolutely necessary. So we're moving forward to work with 
contractors to get additional aircraft available and--but we 
are going to probably be depending more on the Air National 
Guard's, their C130s, their MAFs units, probably even more so 
than we did last year.
    But that's the approach that we have going forward. Then 
we'll also will rely on our large helicopters. Where we will 
have 30 large air--large helicopters under contract at the 
start of the season versus 34 last year.
    But all of our large air tankers are all the Type 1. 
They're all the largest class of helicopters. So we've actually 
increased the amount of capacity for water drops with those 30 
than what we had under the 34.
    Senator Wyden. I want to get into one other area. So I'll 
just ask this for the record, Chief. Senator Murkowski and I 
were part of a large bipartisan group that sent you a letter 
with respect to the large air tankers and aviation innovation. 
I think the agency has to speed up the effort to consider new 
technology.
    We've got a tanker in Oregon, for example, a very large air 
tanker that can disperse 7 times what the current fleet that 
can. It's sitting grounded. I'm going to ask you this for the 
record, but if you could get back, could you get back to me 
within 30 days specifically on the question of what the agency 
will do to start considering these new technologies.
    As I say we've got a bipartisan group of Senators 
interested in this. Can you get back within the next 30 days on 
that?
    Mr. Tidwell. Yes. I hope that that company submitted a 
proposal.
    Senator Wyden. Good.
    Mr. Tidwell. So that we can consider them as one of the new 
generation aircraft.
    Senator Wyden. Very good.
    Let me ask you about the second area that I'm concerned 
about. That's the 9th Circuit Court's decision with respect to 
forest roads. As you know it would replace our current system 
which is essentially based on best management practices with 
what it would really amount to a mandatory Federal permit when 
forest roads are used for timber management.
    In your judgment would something like that, you know, make 
sense? Would something like this provide additional 
environmental benefits? Certainly there's concern about 
paperwork and litigation and the like.
    What are your thoughts with respect to an approach that 
could come out of the 9th Circuit involving a mandatory Federal 
permit?
    Mr. Tidwell. I believe that our using the best management 
practices that we've been using provides for the steps that we 
need to ensure we have clean water. They've proven to be very 
effective. They're adaptive. That we feel that this is 
adequate.
    We're working with EPA. We have been having some very--
they've been beneficial discussions about how to be able to 
move forward in a way that we can continue to use our best 
management practices.
    Senator Wyden. I share your view. Look forward to working 
with you.
    Thank you, Mr. Chairman.
    The Chairman. Alright. We've had one round. Let me ask a 
couple of questions and then see if Senator Murkowski and 
Senator Franken have any others or Senator Wyden.
    On this whole issue of fire borrowing, I guess is the 
phrase we use for it, which we've struggled with here for many 
years now. In recent years the Forest Service has had to borrow 
about $2.3 billion from other accounts in order to do this 
emergency wildfire suppression work, I understand. About $1.85 
billion of that 2.3 has been repaid. So there's a shortfall of 
around $400 million that has not been repaid.
    Is this a factor that impacts Forest Service programs? 
That's the first question, I guess.
    Mr. Tidwell. Senator, when we've had to borrow or transfer 
funds from other programs to pay for fire suppression it has a 
direct impact on this less work, less forest restoration work 
being accomplished, less trails being maintained, less roads 
being, you know, maintained. So there's been a direct effect 
versus if we hadn't had to borrow or transfer that money, we 
would have gotten more work done.
    The Chairman. Do you believe that you have enough of a 
reserve this year that you can avoid having to borrow from 
other accounts, or do you have an opinion on that?
    Mr. Tidwell. We do not have a reserve this year. Based on 
the Flame Fund report that we'll be getting up to you here in 
the next couple days where we estimate what we anticipate we'll 
need for funding for this, you know, coming year. The medium 
estimate is very close to what we currently have in our budget 
for suppression this year.
    So it's close. We're going to watch it very closely. We'll 
continue to send a report every week to your staff on our 
spending.
    But depending on how this fire season develops, it's going 
to--it will be as tight as we've had since probably 2007 and so 
we'll continue to work with you to keep you informed on it. But 
a lot will depend just on how the fire season develops 
primarily in the middle part of the country.
    We expect to have an active fire season in the south 
similar to what we had last year.
    The northwest is probably, hopefully, will have more of a 
moderate to late fire season.
    But that central part of the country is the area that we're 
probably going to have to wait and see how just the weather 
patterns develop this year and the amount of lightning.
    But it's going to be very tight for us to be able to have 
adequate suppression funding this year.
    The Chairman. Let me ask on another subject. An issue that 
we hear complaints about relates to visitor fees for various 
recreation uses of the Federal lands. In 2004 we enacted the 
Federal Lands Recreation Enhancement Act which authorized the 
Forest Service and other agencies to charge these visitor fees.
    We've received some complaints that the Forest Service 
position is that the Federal fee policies that are set out in 
the 1994 law do not apply to National Forest recreationaries 
administered under a concession permit. So that there are areas 
under concession permits where fees are being assessed by 
concessioners for recreational uses where the Forest Service 
could not itself charge fees and that Federal fee passes which 
supposedly provide for nationwide acceptance are not recognized 
in these concessioner managed areas. Is this something you have 
looked at?
    Can you tell me what the Forest Service position is with 
respect to the applicability of Federal recreation fee policies 
in areas that are administered under concession permits?
    Mr. Tidwell. Senator, we are looking into this. I want to 
have a consistent approach to fees across the board whether 
it's an area that concessioners are operating or it's an area 
operated by, you know, by the Forest Service, so that for the 
public they understand where we do charge fees. Then also what 
the fees are used for.
    So it's essential we have a consistent application between 
our concessioner operated facilities versus just the agency 
operated. So it's one of the things I will look into this and 
I'll get back to you on it.
    The Chairman. Alright. We appreciate that.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I wanted to make sure that I understood clearly on the 
issue of the fire air tankers that you were speaking with 
Senator Wyden about. First of all, I appreciate that you're 
going to be getting back to us on the letter that so many of us 
signed about the diversification of the fire fighting air 
tanker fleet. So we'll look forward to receiving that.
    I thought I heard you say that you were going to be looking 
to utilize the Air National Guard C-130 more. It was my 
understanding that the Department of Defense has once again 
indicated that they do not desire to take on the additional 
responsibility with the C-130. So did I hear you incorrectly or 
how does the strategy document that you all provided my office 
just in February?
    Are we going to have to change this? Where are with the C-
130s there?
    Mr. Tidwell. Senator, you heard me correctly. We have 
relied on the Air National Guard to provide up to 8 C-130s that 
are equipped with a retardant tank that we can slip into these 
aircraft. We've relied on these now for quite a few years to 
provide us additional capacity at the peak of our fire season.
    The Department of Defense made, at least it was clear to 
me, that they're not interested in expanding their mission to 
assist in this. But also at the same time we have, it's my 
understanding, they're going to continue to work with us with 
these Air National Guard units to provide these 8 planes when 
we need them. But we only use those after everything else is 
fully committed.
    So it's part of our strategy in that it will just help 
bridge. My point that I would that when I said that I expect 
this year that we're going to maybe have to rely on them more, 
it's because we're entering this year with 8 less air tankers 
then we were planning to have even a year ago. So with our 
request for proposal to get some additional aircraft brought 
online and under contract, that will help, but to get all 7 of 
those is going to take the next 2 years.
    So we're going to enter into this year with fewer large air 
tankers, even with the 2 water scoopers we're going to bring 
on. So that's why I believe that if we have an active fire 
season that we'll probably need to rely on those 8 MAFs planes.
    Senator Murkowski. I hear what you're saying but I'm also 
very cognizant that we are asking our National Guard to do so 
much more in so many other areas.
    Mr. Tidwell. Yes.
    Senator Murkowski. As we're bringing down the number of our 
Army, our Marines and the folks that are active, we are really 
relying so much more on our Guard units. So we've got to be 
very cognizant about the stresses that we are putting on a 
system here.
    I wanted to ask you a question about the Sealaska bill that 
we have been working on. Let me ask you about the provisions 
within the Sealaska bill that relate to documented grave and 
historical sites. The Forest Service is proposing to really 
severely limit the selections that are allowable under the 
Native Claims Settlement Act that was passed in 1971 that 
allows sites to be selected under the Historical and Cemetery 
sites.
    But in these negotiations that are underway now, the effort 
by the Forest Service to limit those selections to really only 
a fraction of the sites that have been documented in Southeast 
is something that we're still hung up on. I guess the question 
to you is whether or not you are aware of and actually support 
the Forest Service opposition of the transfer of these 
documented grave and historical sites to Native Alaskans even 
though Congress has specifically authorized these transfers 
under the Alaska Native Claims Settlement Act.
    Mr. Tidwell. Senator, we want to continue to negotiate on 
those areas that are being requested to be included in the 
legislation and to be able to look at that along with all the 
other parts of the bill. So I'm optimistic that, you know, 
through our negotiations we'll be able to result in having a 
bill that everyone is supportive of and we can get this 
completed.
    So I'm optimistic we'll be able to get this addressed.
    Senator Murkowski. I hope that you're optimism carries 
through then in these negotiations because this is, again, this 
is something that Congress authorized decades ago. Yet now 
we're hung up on this because of Forest Service objections. As 
the Chief of the Forest Service, I don't know how involved you 
are in this aspect of it, but it is something that has not 
allowed the negotiations to proceed to conclusion.
    Again, what I'm trying to do is not only finish off the 
entitlement to Sealaska when we recognize that promises were 
made 40 years ago to complete these conveyances. Some of us 
feel pretty strongly that that time has expired a long time 
ago. We need to get this resolved.
    Last question for you and this kind of dovetails on the 
conversation that we had initially about planned timber sales. 
Your predecessors in the Department had committed to 4, 10-year 
timber sales each with a volume of 150 to 200 million board 
feet. You know, we've had 2 of these timber sales that were 
begun but they've been downsized. They've been delayed.
    So what I need to know from you is whether or not you will 
direct the Regional Forester and the Forest Service Supervisor 
to take immediate action, to take those steps to honor that 10-
year timber sale commitment in the Tongass.
    Mr. Tidwell. Senator, we're committed to moving forward 
with long term, you know, contracts. I believe the stewardship 
contract, you know, is probably a better tool for us right now. 
We're able to issue those for, you know, up to 10 years. I 
think that is a better approach.
    Senator Murkowski. So you're not willing to keep the 
commitment that was made by other Chiefs of the Forest Service 
to the 4, 10-year timber sales?
    Mr. Tidwell. I know that we've issued 3 on stewardship 
contracts last year. I know that we wanted to continue to move 
forward and issue more of those. I want them to be long term, 
you know, contracts.
    So you have my commitment to that we will move forward to 
issue long term stewardship contracts. But I want to be able to 
do it in a way that we can get the work done. I'm not 
interested in doing something that will just go in front of a 
judge and will be stopped. We will not be able to implement.
    We've done too much of that. Where there's been decisions 
that have been made and even though we win the majority of the 
times in court. There's no work that gets done.
    I think the course that we're on in Southeast Alaska and 
across this country about working together with a way to be 
able to put projects together that we can implement that we can 
actually get work done on the ground, people get employed, jobs 
are created and forests are improved. We'll be able to make use 
of the resources. I do believe it's a better model.
    That's what I want us to continue to work on there in 
Southeast Alaska and across the rest of the country. I want us 
to be successful.
    Senator Murkowski. I share the concern and the frustration 
that we have that seemingly every sale is stopped by 
litigation. As you know, those that have been part of a once 
vibrant industry have basically been shut down. Shut down by 
their own Federal Government because of the policies that have 
been put in place, the policies that have been enacted.
    I understand your commitment to restoration policies. But 
in Ketchikan they're calling it a restoration to poverty. They 
are not optimistic about the direction that we have taken. They 
are not optimistic that the approach that has been taken is one 
that will allow them to sustain.
    You know that this is a fight that I'm going to keep at.
    Mr. Tidwell. Yes.
    Senator Murkowski. I need you to understand the 
significance of what is happening within the Tongass because 
these people cannot survive for too much longer given the 
environment that they're in.
    Thank you, Mr. Chairman.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    I have a meeting in a couple minutes. So I'll make this 
short. But I really wanted to stick around to associate myself 
with Senator Shaheen's advocacy for combined heat and power and 
for biomass.
    As you know in Minnesota the pulp and paper industries use 
a lot of biomass for the production of the pulp and the paper, 
but also for powering the facilities with renewable biomass 
energy. We have a lot of biomass gasification projects. The 
facility that you talked about in New Hampshire I think is a 
great model. We do a lot of combined heat and power.
    We have a lot of combined heat and power. We have a great 
combined heat and power project in St. Paul. I want to build on 
that.
    In fact I sponsored or authored a piece of legislation that 
Kit Bond in the last Congress was my lead co-sponsor on that. 
I'd like to get going again. Because I think that combined heat 
and power is just part of the one piece in the clean energy 
standard that we can put together to address, you know, the 
need to bring down our carbon footprint if we are going to 
address global warming.
    Because I just want to repeat again. If we don't do 
something about it, the cost of what you're spending on fire 
suppression is going to crowd out everything everybody else is 
asking about. The cost of this is going to crowd out.
    Everyone here is asking about a specific program and these 
are all very important programs. The fact of the matter is as 
climate change continues to worsen. We are going to see lots 
and lots of programs crowded out by the cost of dealing with 
that climate change.
    I want to thank you for your service. I gotta run. I gotta 
run.
    Thank you.
    The Chairman. Chief Tidwell, thank you very much for your 
time. You've been very generous with it. We appreciate your 
good work.
    We will continue to stay in touch.
    Mr. Tidwell. Thank you.
    The Chairman. That will complete our hearing.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

        Responses of Tom Tidwell to Questions From Senator Wyden
                  snow basin project and timber sales
    Question 1. Timber sales are an ever present issue, and I am very 
pleased by the agency's efforts to ramp up to landscape scale 
restoration. I was thrilled to have two more Collaborative Forest 
Landscape Restoration projects awarded in Oregon. These should be a 
great benefit going forward in boosting timber sales. However, I 
continue to hear concerns from the timber industry that the agency is 
not providing enough timber harvest. For example, it appears the agency 
will fall far short of the goal for board feed sole that was provided 
in the Consolidated Appropriations Act report for FY12. And, as you 
know from our recent discussions, this concern is reflected in specific 
projects that the Agency has been slow to advance.
    Several weeks ago, you and I spoke about critical project on the 
Wallowa Whitman National Forest--the Snow Basin project, which 
exemplifies many of the agency goals you highlighted in the budget 
hearing: forest restoration, woods products, landscape scale efforts. 
As we discussed over the phone, the timeline for the project has been 
continuously pushed back--despite letters of support from the 
community, the timber industry and environmental community, as well as 
myself. When we spoke, you assured me the agency would sign the Record 
of Decision and put this project out in March. Yet, a little over a 
week ago my field heard--initially second hand, despite my clear 
interest in this project--that the project decision was now being 
delayed yet again, to April. Chief, I simply don't understand why these 
delays--on one of the only timber projects on this National Forest--
keep occurring, despite your assurance to the contrary. This sale 
should be a top priority for the agency; it means jobs--critical jobs 
that are needed in this rural area. Can you explain to me what is going 
on and tell me what you will do to ensure these delays stop and the 
projects moves forward quickly?
    Answer. The Snow Basin Final Environmental Impact Statement was 
completed and the Record of Decision was signed on March 19, 2012. Both 
documents have been sent to the Government Printing Office for 
expedited printing. The Notice of Availability was published in the 
Federal Register on March 30, 2012.
    The Wallowa-Whitman National Forest has partnered with Wallowa 
Resources and Sustainable Northwest in initiating a broad-scale 
collaborative group to engage stakeholders in building consensus for 
forest restoration projects at the landscape scale. The forest has 
identified restoration needs across all sub-watersheds, and will bring 
this information to the stakeholders group for discussion in May 2012. 
We anticipate this will facilitate development of broader support from 
the community, timber industry and conservation community for more 
landscape scale projects on the Wallowa-Whitman National Forest, while 
streamlining the time it takes to complete environmental analyses.
                 as innovation and very large airtakers
    Question 2. As I mentioned in the hearing, I want to submit a 
question for the record on the important issue of aviation innovation. 
At the hearing you stated you would deal with the 2012 fire season by 
adding two scoopers, having a VLAT on a Call When Needed contract, and 
planning to rely heavily on Air National Guard planes. That underscores 
the importance of a plan and I'm not satisfied that the ``Large 
Airtanker Modernization Strategy'' report lays out much of a strategy 
beyond stating the obvious--that the Agency needs to replace the 
current fleet. The report focuses on types of aircraft; however, I want 
more emphasis placed on an oversight strategy that provides Congress 
and the public with an objective analysis of the costs and benefits of 
different aviation tools and modernization strategies. A central 
questions to that analysis is what kind of fleet do we need to fight 
the fires of today and for the next 50 years. Yet the Agency's tepid 
response to Very Large Air Tankers, and refusal to objectively evaluate 
initial attack capability, give me little confidence that the agency is 
ready to answer that central question. What will it take for the Forest 
Service to consider new technology? I want confidence that you've 
thoroughly and objectively evaluated all the tools available to fight 
fires, and confidence that you'll adopt those benefits expediently and 
wisely. What policies do you have in place to foster innovation among 
private companies who are partner with the forest service? I just fear 
that the Forest Service--through its slowness and indecision--stifles 
adoption of innovation and cost-savings that I believe is available to 
the agency.
    Answer. The Forest Service welcomes and seeks out innovation and 
technology that may improve safety, effectiveness or reduce cost. 
Several on-going projects that track aircraft use and record maneuver 
load impacts to the aircraft are a direct result of adopting innovative 
technology that is low impact to the contractor yet provides important 
data to improve safety and effectiveness. Technology and our 
partnerships with contractors will be key components of the evaluation 
of next generation large airtankers, the very large airtanker, 
helicopters and water scoopers. Aircraft will have telemetry units paid 
for by the Forest Service to help evaluate drop effectiveness, accuracy 
and fire control objectives. Infrared and video cameras will document 
retardant drops to evaluate drop locations and other metrics. The 
Forest Service has engaged with private industry throughout the next 
generation contract process going back several years to gauge their 
ability to provide next generation aircraft and technology. The current 
Request for Proposals (solicitation) for next generation large 
airtankers included a Request for Information phase which gauged 
private industry's response and potential ability to develop and 
provide these aircraft.
    The Forest Service believes the next generation large airtanker 
fleet should be modern aircraft with technology that reduces costs 
while improving effectiveness. Proposed aircraft need to be faster, 
more fuel efficient and use technology to improve drop effectiveness 
and drop accuracy. The program can be more cost effective through using 
these tools.
    Analysis will continue during the upcoming fire season that will 
evaluate airtankers, water scoopers and helicopters. The primary 
objective of this analysis is to develop and implement performance 
metrics to analyze the use of all firefighting aircraft. Technology is 
the key to this study and will include real time infrared and camera 
analysis, digital real time data tracking and mapping, and command and 
control computer programs.
           integrated resource restoration and accountability
    Question 3. I appreciate that IRR is a top agency priority, and I 
generally agree with your assessment that project integration makes 
sense, particularly in shifting to broad landscape scale restoration. 
However, like others in Congress, I remain concerned about the 
accountability for use of these funds and how success will be tangibly 
measured through concrete outputs (i.e. board feet provided; acres 
treated; stream miles restored). In the hearing you mentioned that you 
will provide a program to track the outputs of IRR. Details on how the 
pilot programs are progressing would also be useful. Can you please 
flesh out how you plan to provide accountability and measure the 
effectiveness of the money spent on the pilots? When shall my office 
expect to see receive this information? What measurements for success 
do you plan to put in place for future IRR activities?
    Answer. The FY 2012 Consolidated Appropriations Act funded a proof 
of concept and authorization for the Forest Service to implement an 
Integrated Restoration Resource (IRR) pilot program in Regions 1, 3, 
and 4. The Appropriations Act provided funding up to $146,350,000 for 
the program in FY 2012. The IRR program implementation guidance was 
made available to the three regions on February 6, 2012 including IRR 
target guidance to ensure that performance and accountability goals 
will be met. The direction includes an emphasis on program integration 
whose outcomes will be measured using traditional targets such as 
timber targets, miles of road decommissioned, and miles of stream 
habitat restored while also including new measures related to the 
watershed condition framework. A national report of the IRR Pilot 
Authority summarizing accomplishments from Regions 1, 3, 4 will be 
completed no later than November 30, 2012.
    The Statement of the Managers accompanying the FY 2012 Consolidated 
Appropriations Act required the Forest Service to ``. . .Within 90 days 
of enactment, the Forest Service should present a plan and guidance to 
the pilot regions for measuring performance and accountability.'' The 
IRR program implementation guidance was made available to the three 
regions on February 6, 2012 including IRR target guidance to ensure 
that performance and accountability goals will be met. The Integrated 
Resource Restoration Pilot Accountability and Implementation Report 
will be submitted to Subcommittees soon.
How funding and targets were allocated in FY 2012
    The Forest Service's Washington Office provided program direction 
to the pilot regions to ensure funding allocations are consistent 
across the regions. Overall IRR funding limits were set by the FY 2012 
Consolidated Appropriations Act. Funding for each region is based upon 
capability, past performance, and adjusted according to expected 
national targets.
    Our primary outcome-based accomplishment measure associated with 
IRR work is the number of watersheds moved to an improved conditions 
class. We will also track four more traditional output-based measures 
to gauge our progress including: total acres treated annually to 
sustain or restore watershed function and resilience; volume of timber 
sold; miles of roads decommissioned; and miles of stream habitat 
restored or enhanced.
Watershed Condition Framework and Priority Watersheds
    A critical component of the successful implementation of IRR is the 
Watershed Condition Framework. This framework provides foundation and 
guidance for consistent identification of factors limiting a 
watershed's condition, determining the overall condition class of a 
watershed, identifies the priority watersheds to focus restoration 
efforts on, and identifies the essential suite of projects to improve a 
watershed's condition. The three pilot regions have already determined 
the condition class of all 5,926 watersheds containing significant 
portions of National Forest System lands. Among them 78 priority 
watersheds were selected for restoration activities in the next three 
to five years.
Ongoing Evaluations and Monitoring
    To evaluate the effectiveness of the Forest Service's IRR Pilot 
Authority, Regions 1, 3, and 4 will submit accomplishments reports. 
Information will be compiled into a national report illustrating how 
the pilot authority addressed operational efficiencies and met desired 
outcomes. Regions will submit the following:

  <bullet> Three to five case studies from each region showcasing 
        accomplishments and successes implementing the IRR authority
  <bullet> Description of outcomes associated with activities to 
        improve watershed condition within the context of the Water 
        Condition Framework
  <bullet> Examples of combined focus and funding with Collaborative 
        Forest Landscape Restoration Program and other agency 
        strategies
  <bullet> Description of how consolidation of multiple budget line 
        items affected programs/activities/project selection
  <bullet> Advantages and disadvantages of a consolidated budget line 
        item
  <bullet> Recommendations on how IRR authority can be improved
  <bullet> Communication tools and/or websites highlighting the public 
        aspects of IRR pilot implementation

    Monthly video teleconferences are scheduled by the Washington 
Office staff, to identify emerging issues, discuss unforeseen 
consequences, and maintain consistency, as appropriate, among the three 
regions.
                          next gen contracting
    Question 4. How do you plan to be open, consistent, and fair in 
your dealings with commercial contractors? Undertaking a switch to a 
Next Gen fleet involves a large financial commitment with no guarantee 
of return for commercial operators. Although I have concerns about the 
Next Gen plan as announced, the agency is clearly advancing on the RFP 
for Next Gen air takers. How will the Forest Service foster industry 
faith that is commitment to modernizing the fleet matches the 
commitment of the private sector?
    Answer. The Forest Service has held annual Airtanker Forums to 
maintain open communication and stay engaged with private industry as 
we began the next generation contract process. During these meetings, 
private industry has said they realize the investment in next 
generation aircraft is a larger financial commitment and risk than they 
are used to, but they were and are willing to make the commitment. The 
contract length for the next generation airtanker will be extended to 
10 total years (five base plus five one year options) to spread out the 
financial risk at private industry's request.
    The next generation proposals are evaluated by a Technical 
Evaluation Board (TEB) composed of Forest Service pilots, airworthiness 
inspectors, an aeronautical engineer, aviation safety managers, 
aviation operations managers, and one National Aeronautics and Space 
Administration engineer. This panel follows the requirements in the 
contract solicitation and includes the aircraft, Federal Aviation 
Administration certifications, airworthiness, retardant tank testing 
and evaluation, and other parameters including technology. The proposed 
cost of the aircraft is not part of the TEB's evaluation. Prior to the 
close of the solicitation, the Forest Service conducted a conference 
with all interested parties to answer questions about the solicitation, 
process, and technical aspects of the bid proposal. Based on feedback, 
the Forest Service extended the close of the solicitation by two weeks.
    Two to seven next generation large airtanker contracts are expected 
to be awarded in the near future, demonstrating our commitment to 
modernizing the airtanker fleet.
                       next gen data and analysis
    Question 5. The ``Large Airtanker Modernization Strategy'' 
concludes that ``between 18 and 28 aircraft are needed.'' Please 
precisely explain the data relied upon to support that conclusion. 
Additionally, given the Agency's willingness to consider government 
owned aircraft, I would like to better understand any differences 
between evaluating the cost/benefits analysis of contractors owned and 
government owned. Are government owned aircraft subject to the same 
accounting rules (for metrics such as daily availability rates, etc.) 
as contractor owned? How can I best compare the cost data from a 
government owned aircraft (say the C-130J) and the cost data from a 
contractor owned aircraft?
    Answer. In the Large Airtanker Modernization Strategy, the 
conclusion that 18 to 28 aircraft are needed is based on several 
analyses, past and current use, and collaboration with the Department 
of the Interior. The requirements for large airtankers have been 
derived from the National Interagency Aviation Council Phase III 
Report, dated December 7, 2007, which noted the need for up to 25 large 
airtankers. Increased effectiveness and improved speed and quantity of 
retardant impacts the need for planes. In 2009 and 2010 the Forest 
Service successfully operated with 18 planes. The Forest Service will 
continue to monitor fire risk and plane capability to determine the 
most effective fleet size.
    Acquisition of aircraft is subject to a business case analysis 
required by the Office of Management and Budget Circular A-11. 
Instructions are located at: http://www.whitehouse.gov/sites/default/
files/omb/assets/a11_current_year/aircraft_funding.pdf. The analysis 
includes initial acquisition costs and life-cycle costs over the 20 
year life of the aircraft. Additionally, the analysis includes a 
requirements analysis, risk plan, alternatives analysis and an 
acquisition plan. These documents are generated for submission by the 
Forest Service, to the Department of Agriculture for review by OMB 
prior to any acquisition. OMB Circular A-94 provides guidelines and 
discount rates for benefit-cost analysis of federal programs.
    The analysis compares contractor owned with government owned using 
similar metrics. For example, the daily availability for a contractor 
owned aircraft is called fixed costs for a government owned aircraft. 
The same analysis rules apply for both ownership models.
      Responses of Tom Tidwell to Questions From Senator Cantwell
                 integrated resource restoration (irr)
    I know that you share the commitments to promoting both watersheds 
and efficiency within the Forest Service. While I appreciate your 
efforts to find savings and administrative efficiencies, I have some 
concerns about the proposed Integrated Resource Restoration (IRR) 
program in the President's request. Because the IRR pilot project was 
just approved a few months ago, I do not understand the rush to expand 
the program nationwide.
    Question 1a. Why has the Administration asked to expand this 
program nationally, when we have not had a chance to see if the pilot 
delivers on its promised results? Could you please outline the reasons 
why this pilot program is being fast-tracked?
    Answer. Restoration and management of the national forests and 
grasslands are critically needed to address a variety of threats to the 
health of our forest ecosystems, watersheds, and forest-dependent 
communities including; fire, impacts of a changing climate, insect and 
disease outbreaks such as Bark Beetle. Increasing the pace of 
restoration and management activities is beneficial to national forests 
and grasslands and creates or maintains local jobs. One important tool 
to achieve restoration on a national scale is the expansion of IRR to a 
nation-wide authority.
    In the FY 2010 Budget Justification the Forest Service recognized a 
need to improve the business rules for accomplishment reporting. This 
reform advanced performance and accountability, shifting focus from a 
highly functionalized approach to one that aligns other programs and 
partner organizations to achieve multiple goals. For example, timber 
sales are often used to meet wildlife habitat requirements, restore 
watersheds, and reduce wildfire risk to communities as well as to meet 
timber sale projections.
    The FY 2011 Budget Justification went further to support the 
Secretary's vision of implementing an all lands restoration framework 
and introduced the Integrated Resource Restoration (IRR) budget line 
item (BLI). The proposed new BLI combined Forest Products, Vegetation 
and Watershed Management, and Wildlife and Fisheries Management items 
from FY 2010. Managers were then encouraged to plan and implement 
resource work to ensure fullest value per Federal expenditure.
    The FY 2012 Consolidated Appropriations Act funded a proof of 
concept and authorization for the Forest Service to implement an 
Integrated Restoration Resource (IRR) pilot program in Regions 1, 3, 
and 4. The appropriations bill provided funding up to $146,350,000 for 
the program in FY 2012. Program direction included an emphasis on 
program integration whose outcomes will be measured using traditional 
targets such as timber targets, miles of road decommissioned, and miles 
of stream habitat restored while also including new measures related to 
the watershed condition framework. A national report of the IRR Pilot 
Authority summarizing accomplishments from Regions 1, 3, and 4 
implementations will be completed no later than November 30, 2012.
    The FY 2013 President's Budget proposes $793,124,000 as single 
budget line--Integrated Resource Restoration (IRR) budget line item 
(BLI). By realigning funding, IRR focuses agency resources on 
integrated ecosystem restoration projects. Activities emphasized under 
IRR include those necessary to maintain, enhance, or restore watersheds 
at the landscape level, and statutory activities needed for sound 
resource management. The President's Budget for FY 2013 includes budget 
structure changes to increase efficient delivery of many programs 
throughout the Nation, including with IRR proposed agency wide.
    Working through the IRR Pilot program approved for FY 2012, the 
Forest Service will be positioned to integrate watershed protection and 
increase the pace of restoration in all aspects of management of 
national forests and grasslands to create or maintain local economic 
opportunities, jobs, and to strengthen our partnerships. Our budget 
request continues to emphasize IRR as the leading approach to 
accomplish on the ground restoration on a national scale and we need 
the expanded nation-wide authority to fully realize efficiencies from 
IRR.
    Question 1b. Based on what I have been told by your agency, it will 
take several years to get the pilot program running to full capacity. 
Is this true? If not, what is the expected time frame necessary to 
reach full capacity?
    Answer. A national report of the IRR Pilot Authority summarizing 
accomplishments from Regions 1, 3, and 4 will be completed no later 
than November 30, 2012, after which we will be able to better assess 
capacity achieved under the pilot authority. The Forest Service has 
been operating in an integrated fashion over the past few years to 
accomplish restoration objectives on the ground. Implementation of the 
IRR pilot in FY 2012 gives us the opportunity to work through and 
address issues prior to full implementation. In FY 2013 the Forest 
Service has requested full authority to implement IRR nationally. 
Regions 1, 3, and 4 will be implementing the IRR pilot program in FY 
2012 and we thank you for providing us with the authority to 
consolidate budget line items, which is leading to further program 
integration in the three Regions. However, the efficiencies intended by 
IRR can only be fully realized with full, nation-wide IRR authority as 
requested in the FY 13 President's Budget.
                              legacy roads
    Between 2008-2011, the Legacy Roads and Trails program 
decommissioned 4,284 miles of obsolete roads, maintained or improved 
10,478 miles of needed roads, constructed or reconstructed 298 bridges, 
replaced or repaired 1,224 culverts to improve fish passage, and 
maintained or improved 2,334 miles of recreational trails. The 
President's Budget proposes to make this incredibly successful program 
disappear by absorbing it into a national Integrated Resources 
Restoration (IRR) program.
    Question 2a. How will you provide accountability to ensure the 
critical work performed under Legacy Roads & Trails continues to be 
done?
    Question 2b. While I applaud the aggressive road decommissioning 
target in IRR, how can we be assured that road decommissioning and 
stream habitat restoration is focused on those roads that are causing 
the most serious water quality problems or the highest value (e.g., 
municipal water supplies) regardless of whether they are in a place 
where other integrated management activities are needed?
    Answer. In FY 2012, the Forest Service began implementing our 
recently developed Watershed Condition Framework (WCF) which 
establishes a consistent, comparable, and credible process for 
characterizing, prioritizing, improving, and tracking the health of 
watersheds on national forests and grasslands. The WCF lays out a 
process to allow data from local assessments to be collected, analyzed 
and evaluated to better understand existing conditions and the specific 
needs for restoration and maintenance at the national level; including 
informing our road decommissioning targets and ensuring accountability. 
The Framework builds added accountability and transparency into 
Integrated Resource Restoration for outcomes such as watershed 
improvements as well as traditional outputs including road 
decommissioning.
    Our primary outcome-based accomplishment measure associated with 
IRR work is the number of watersheds moved to an improved conditions 
class. We will also track four more traditional output-based measures 
to gauge our progress including: total acres treated annually to 
sustain or restore watershed function and resilience; volume of timber 
sold; miles of roads decommissioned; miles of stream habitat restored 
or enhanced. The five accomplishment measures assigned to IRR are 
outcome or output based. The number of watersheds moved to an improved 
condition class and total acres treated annually to sustain or restore 
watershed function and resilience are cumulative program 
accomplishments.
    Question 2c. What is the current maintenance backlog for forest 
service roads? How many years would it take to clear this backlog if 
funding levels continued at the President's Request for FY 2013?
    Answer. The current backlog of deferred maintenance on our 
passenger car road system is estimated to be $3.3 billion. At current 
funding levels, the agency would find it difficult to clear this 
backlog, but that is true at any foreseeable funding level. We create 
travel analysis plans to inform the size of our road system and to 
inform the creation of motor vehicle use maps, which guide the use of 
our road system. The President's Budget request provides sufficient 
resources to maintain critical access to the National Forests, and for 
Travel Analysis Plans that will allow us to right size our road system 
and work to bring down the road deferred maintenance backlog.
      Responses of Tom Tidwell to Questions From Senator Murkowski
    Question 1. Chief Tidwell, in the Energy and Natural Resource 
Committee hearing on the President's proposed budget you said the 
Tongass has an 80 million board feet timber sale target. But last week 
a Regional Ten Forest Service employee met with the Timber Industry in 
Southeast and said the following: The region has sold 1.6 million board 
feet of timber thus far in FY 2012 and plans to sell an additional 6.8 
million board feet during the second half of FY 2012.
    Can you help me understand what sales, how much volume in those 
sales, and where those sales will be located to meet the remaining 71.6 
million board feet that you spoke of at the March 6th, 2012 hearing?
    Answer. The information given to industry at the Alaska Forest 
Association meeting was based upon the Periodic Timber Sale 
Announcement issued October 2011 and did not include volume from 
projects where the National Environmental Policy Act (NEPA) process was 
not complete. The report will be updated in late April 2012 and will 
include additional volume, which has become available after completion 
of the NEPA planning cycle. Based upon information contained in the 
Draft 5-Year Forest Timber Sale Schedule and Integrated Service Timber 
Contract Plan, the Tongass will offer small sales ranging in size from 
.016 to 1.20 million board feet (MMBF) for a total FY 2012 offer of 
10.8 MMBF to meet the needs of small mill operators; Tonka Timber Sale 
in total of 39.6 MMBF of sawtimber and utility (see response to 
question 2). Additional volume could be available from the Navy 
Environmental Impact Statement (up to 18 MMBF), but at the moment the 
project is appraising deficit, and appropriations language prohibits 
deficit sales to be offered in Alaska. If conditions change, the Forest 
Service will offer all portions of the Navy sale that are economical. 
For the purposes of responses to later questions, Navy will be shown as 
a FY 2013 offer.
    Question 2. In a meeting last month with the Alaska Forest 
Association was told that the Tonka timber sales Record of Decision 
would be signed in April and implemented 105 days later (early August). 
Yet that sale volume (estimated to be 32 million board feet) did not 
mentioned as part of the FY 2012 offer target.
    Will you commit to offer the Tonka Timber Sale by the end of the 
first week of August this summer?
    Answer. The Tonka Timber Sale was not shown on the above mentioned 
periodic sale announcement because of the tentative nature of the NEPA 
process completion date. The Tongass has worked to streamline the sale 
preparation process and thus the Tongass is now ahead of schedule on 
the completion of NEPA. Both the Tongass and Alaska Region are 
committed to having all of the available volume in Tonka offered in FY 
2012. Pending appeals and potential litigation, the award of the Tonka 
sale is targeted for August 2012.
    Question 3. The Timber industry in Alaska was also informed that 
the Tongass expects to expend $3.5 million on road reconstruction on 
the forest, but that they also plan to expend $3.3 million to close 
roads on the forest.
    Can you help me understand why it is you are closing the very roads 
you will likely need to produce the 2nd growth sales that you want to 
transition to?
    Answer. The region received approximately $588,000 of Legacy roads 
funding in FY 2012 for the Tongass National Forest with an assigned 
target of 20-miles of road decommissioning. Beginning in FY 2008, the 
Tongass began to use Legacy Roads funding to begin implementation of 
the Tongass Access and Travel Management Plan. The Tongass has 
aggressively pursued road closure actions of Maintenance Level 1 roads 
(ML1) to meet future maintenance capabilities based on projected 
funding. From FY 2008 through FY 2012, $5,266,963 (average of $10,000/
mile) has been spent to convert Maintenance Level 2 (ML2) open roads to 
ML1, closed roads across the forest, resulting in approximately 450 
miles closed from FY 2008 through FY 2012. An additional 100 miles of 
previously closed ML1 roads received additional work to preserve 
infrastructure investment.
    The Tongass has a road system that is in excess of needs and is 
difficult to maintain, open for use in a safe and maintainable 
condition. When second-growth sales become available for harvest over 
the next several decades, ML1 roads may be reopened for use to 
accommodate the needed transportation linkages.
    It is important to clarify terminology with respect to the 
difference between decommissioning a road and closing a road to 
vehicular traffic. Road decommissioning is performed to stabilize, 
restore, and re-vegetate unneeded roads to a more natural state to 
protect and enhance National Forest System lands.
    Closing a road to vehicular traffic is classified as ML1. This is 
performed to keep damage to adjacent resources to an acceptable level 
as well as the government's investment in the road to ensure it will be 
available for future resource management needs. Emphasis is normally 
given to maintaining drainage facilities and runoff patterns. Planned 
road deterioration may occur at this level. The closure period for a 
ML1 road typically exceeds one-year and basic custodial maintenance is 
provided during the duration of the road closure. However, while being 
maintained at ML1, they are closed to vehicular traffic, but may be 
open and suitable for nonmotorized uses.
    Over the last 10-years a total of 48 miles, equaling 50 roads on 
the Tongass have been decommissioned.
    In FY 2012 the Tongass will spend $3.62 million on reconditioning 
approximately 31.5 miles of existing timber haul roads, development of 
a five-acre log sort yard and reconstruction of one Log Transfer 
Facility. These five projects will support up to 159 MMBF of identified 
future timber sale volume within the next 5-10 years.
    Question 4. Would you have your staff identify for me every road 
that has been closed in the last 10 years and is expected to be closed 
this year and how many acres of second growth timber is being isolated 
by the road closure?
    Answer. Approximately 578 miles of system roads have been placed 
into Maintenance Level 1, or stored, during the 10 year period. During 
the same period, an additional 311 miles of previously stored roads 
were scheduled to receive stabilization and maintenance activities to 
minimize potential resource damage. Since long term access to harvest 
units is unchanged when a road is placed into intermittent storage, no 
second growth timber is isolated by these road closures.
    Decommissioning of roads does impact the access to second growth 
timber. The acreage of second growth affected has been assessed based 
on the proximity of the road system to the harvested units; 
specifically those units that intersect, or are within a quarter mile 
distance, of a road. The second growth timber readily identifiable in 
the mapping exercise totals approximately 3,300 acres affected by 
decommissioned roads.
    Question 5. During the same meeting the Forest Service told the 
Alaska Forest Association members it planned to sell 143 mmbf in FY 
2013 but only mentioned 135 mmbf worth of sales including Big Thorne; 
Traitors; Scott Peak and Navy. Will you provide me with a detailed list 
of where the other volume is expected to come from and where you will 
find additional timber to offer if any of the estimates made fall 
short?
    Answer. The following table shows the Draft 5-Year Timber Sale 
Schedule and Integrated Service Timber Contract Plan (including the 
total expected volume from Navy):

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 6. Finally, the Alaska Forest Association was told there 
will be 170 mmbf offered in FY 2014, 39 in FY 2015 and 63 mmbf in 2016. 
Can you explain the planned reductions in FY 2015 and FY 2016?
    Answer. Planning teams on the Tongass are currently fully engaged 
in completing large analysis projects for FY 2012, 2013 and 2014 timber 
sale offers and have not yet begun the analysis of areas for FY 2015 
and 2016. Additional areas are being evaluated for future projects and 
the Draft Timber Sale and Integrated Service Timber Contract schedule 
will be updated to reflect those additions.
              tongass national forest timber sale program
    Question 7. Chief, last year I asked you if it would be possible to 
find sufficient timber to permit a small mill to open in Wrangell. I 
was told that would be possible. In the past year has there been any 
progress made in producing sufficient timber in a longer-term contract 
length to permit that small mill to open, or to allow another proposed 
wood shake mill to open at Coffman Cove on Prince of Wales Island?
    Answer. The Tongass is currently planning the Wrangell Island 10-
Year contract at an estimated potential volume of approximately 91 
MMBF. While bidding on timber sales is a competitive process with no 
guarantees for a new operator, the Wrangell Island 10-Year contract 
should provide a potential mill operator in Wrangell the opportunity to 
secure a supply of raw material at the outset of operations. The Agency 
is unaware of any special efforts being made to supply a potential 
shake mill in Coffman Cove, however there is approximately 6 MMBF of 
small sale offers planned from the Diesel EIS in FY 2012 that a 
potential operator could bid in addition to small sales planned from 
the Big Thorne EIS effort.
  economic impact of manufacturing jobs versus government jobs in se 
                                 alaska
    Recently I spent most of a week on Southeast Alaska and while there 
attended a presentation by the Forest Service that focused almost 
exclusively on recreation. Several times over the last two years I have 
read or heard of the Forest Service line offices on the Tongass 
suggesting that recreation jobs can replace the prosperity that the 
timber industry supplied our communities in the past year. I am 
wondering if you have actually spent time in Southeast Alaska during 
the part of the year when tourists refuse to come to visit or to spend 
money in our communities due to weather? We're not talking about an 
insignificant part of the year, by the way. For roughly half of the 
year, every year, tourism in Southeast essentially comes to a halt.
    Question 8a. Can you provide me the data that suggests to your line 
offices that a tourism and recreation based economy can support the 
communities in Southeast Alaska from October through April each year?
    Answer. The Forest Service is aware communities in southeast Alaska 
are struggling economically due to declining timber harvests, 
increasing energy costs, and the recent economic recession, among other 
reasons. Rural communities in southeast Alaska rely significantly on 
natural resources for employment, subsistence and recreation. As the 
primary land manager in the region, the Forest Service is committed to 
helping improve community health and creating local jobs through 
investments in four important economic sectors: forest products, ocean 
products, visitor services, and renewable energy.
    The Forest Service is not aware of any studies, which conclude that 
southeast Alaska communities can thrive solely on a tourism based 
economy. Recreation and tourism will play an important role in the 
overall economic health of the region, but it is only one contribution 
to economic health. The Forest Service recently released an Economic 
Investment Strategy (http://www.fs.usda.gov/Internet/FSE_DOCUMENTS/
stelprdb5352925.pdf), which highlights the importance of sustainable 
resource management to support community health. The Agency's 
investment in the economic cluster initiative is intended to provide 
even greater support to the communities of southeast Alaska.
    The Southeast Alaska Asset Map report serves as a current reference 
on job numbers and the overall economic impact of various sectors in 
southeast Alaska (http://jedc.org/assetmapping-
seakregionalassetmap.php). There are over 36,000 annual jobs on average 
in southeast Alaska. The government sector is an important part of the 
economy with about 13,000 annual jobs on average. However, in recent 
years, State and Federal government employment has declined. Major 
economic sectors that bring money into southeast Alaska (basic 
industries) include commercial fishing, tourism, mining, and timber. 
Manufacturing is also considered a basic industry and is made up mostly 
of businesses that process fish and timber products. Over 10,000 people 
were employed in the fishing industry in southeast Alaska in 2009 and 
about 215 were employed in the timber industry. Visitor services 
provide over 4,000 year-round equivalent jobs per year.
    Communities of southeast Alaska have been adjusting to the loss of 
the large sawmills and the pulp mills in the 1990's. Not unlike the 
Pacific Northwest, the transition from a large timber industry to a 
small one did not occur without significant consequence. Studies have 
shown that communities with diverse economies did the best through such 
a transition. The growth of the tourism industry in Southeast Alaska 
has clearly benefited most communities in southeast. Alaska's economy 
as a whole is highly seasonal. While tourism has the most economic 
impact in the summer months, many industries in southeast Alaska are 
seasonal by nature, including fishing and timber-related jobs, partly 
because of the region's remoteness and the seasonally harsh weather.
    Question 8b. Will you provide me with data on the average wage of 
an employee in the tourism based businesses in Southeast Alaska versus 
the average wage of the timber industry based jobs versus the average 
incomes of your employees that work year-round on the Tongass?
    Answer. The average annual wage of a year-round employee of the 
Tongass National Forest is $66,792. The average annual wage from 2007 
to 2010 for sawmilling is $34,755, and for logging it is $55,269 
(Alaska Dept. of Labor--http://almis.labor.state.ak.us). The leisure 
and hospitality industry is used as a proxy for recreation and tourism 
as there is no government data set specific to recreation and tourism 
employment and wages. Leisure and hospitality is part of what people 
think of as recreation and tourism, but certainly not all of it. 
According to A. Shanks (2011, Alaska Trends magazine--http://
laborstats.alaska.gov/trends/jun11art1.pdf) the average annual wage of 
an employee in the leisure and hospitality industry is $19,789. Shanks 
says the seasonality of the leisure and hospitality industry 
contributes to its low average annual earnings, but not all of these 
jobs are low-paying. Lodging managers, in 2009 for example, earned 
about $51,460 in Alaska. Accommodation jobs pay an average of $24,340 
per year. The lowest sectors are food service and drinking place 
workers ($17,752) and jobs in arts, entertainment, and recreation 
($16,830). Natural resources and mining (including oil and gas) are the 
highest paid private industry jobs in Alaska, with average annual wages 
of $111,302. According to the State of Alaska Quarterly Census of 
Employment and Wages, the average monthly income for employment in 
fishing was $5,079 per month for the first 3 quarters of 2011 (http://
labor.alaska.gov/research/qcew/qcew.htm)
    The National Visitor Use Monitoring Survey, used by the U.S. Forest 
Service to report an annual visitation estimate for each national 
forest, gives an estimate for the Tongass National Forest in 2010 of 
1,885,513 visits. A supplemental survey designed to capture additional 
visitation via boat and plane revised the estimate to 2,337, 981 visits 
to the Tongass annually.
                         forest service outputs
    Question 9. Recently, in a meeting with my staff, you indicated 
that in your view things are better right now for the Forest Service 
than at any other time over the last decade. That, not surprisingly, 
sent my staff to your past budget justifications to try and understand 
how you could come to that conclusion. Could you articulate for me why 
you think things are better now than at any time in the last ten years?
    Question 10. I am going to ask you to speak to three areas:

          a) In FY 2011, the agency reported undertaking only 33 Land 
        Management Plan Amendments compared to an annual average of 43 
        amendments for the decade of FY 2002--FY 2011 with a high water 
        mark of 50 amendments in FY 2006. So how is it that the FY 2011 
        result is viewed as better than any time in the last decade?

    Answer. The number of amendments underway at any point in time is a 
function of need, available resources, regional and local capacity and 
purpose or type of amendments. The planned number is generally 
estimated based on field data which is then adjusted based on the funds 
available. All of these factors affect accomplishment levels. A larger 
number underway during any fiscal year is not necessarily better and 
could be a result of the number of issues being addressed in each 
individual amendment which affects the amount of work needed (i.e., 
time and money).

          b) Until FY 2005, the agency reported the number of approved 
        Timber Sale NEPA Documents through Appeal and Litigation. Since 
        then, the agency has stopped doing that. Now we have no ability 
        to understand how many documents have been through the process, 
        and therefore what the likely timber sale program might be the 
        next year. Is that an improvement?

    Answer. All planned and signed NEPA documents including, those 
associated with vegetation management decisions, are tracked through 
the agency's Planning, Appeal, and Litigation System, which is updated 
quarterly on the Forest Service Schedule of Proposed Actions (http://
www.fs.fed.us.sopa). The timber sale program target is reflected 
through the President's Proposed Budget with an estimated output of 
2,800 MMBF in FY 2013.

          c) Each year your budget justification shows how many Grazing 
        Allotments with signed Decision Notices has been completed. On 
        average, over the last decade, the Forest Service annually 
        completed 377 decisions each year. In FY 2006 the agency 
        completed 670 Decision Notices, but last year the number fell 
        to only 194. Is that because there are no other permit holders 
        seeking to renew their grazing permits? Do you think the 
        ranchers who are desperate to get their permits renewed think 
        things are better today than any other time in the last decade?

    Answer. The number of grazing allotments with signed decision 
notices results from the completion of the National Environmental 
Policy Act (NEPA) work on those allotments. Also, from 2005-2008 the 
Forest Service was granted authority to use a Congressional categorical 
exclusion (CE) for NEPA on grazing allotments that met certain 
conditions. In 2006 we accomplished 452 NEPA decisions signed; the 
Forest Service utilized 185 CEs to meet this accomplishment.
    Grazing permit renewal or reissuance is not directly linked to the 
signing of NEPA grazing allotment decisions. Where an allotment is NEPA 
sufficient, permits are issued after consultation with the permittee. 
Where there is insufficient NEPA, the allotment is placed on a schedule 
for NEPA completion, per the Rescissions Act of 1995, and a permit 
issued with the same terms and conditions as the expired permit.
                 forest service wildland fire aviation
    That strategy document makes cost comparisons between the potential 
Next Generation aircraft that appear to favor the selection of the C-
130J. I am told that if the C-130J were subject to the same cost 
accounting rules as the industry candidate aircraft, it would have a 
daily availability rate close to $100,000 a day.
    Question 11a. Can you check with the vendors who currently provide 
you firefighting aircraft and others and check on this claim? If you 
find it to be accurate will you reissue an early February large air-
tanker modernization strategy document with accurate cost data?
    Question 11b. Do you believe that commercial operators can supply 
the Forest Service with reliable and airworthy tanker aircraft that 
will meet your agency's requirements?
    Answer. The Forest Service Fire and Aviation Management staff 
consulted the aviation industry and the Department of Defense to 
compare and validate all of the costs and we concluded that daily 
availability rates were not close to $100K. The daily fixed operating 
cost in the Large Airtanker Modernization Strategy of $13,740 was 
calculated using the Forest Service's Working Capital Fund (WCF), which 
calculates fixed costs for 365 days per year for the 20 year life-cycle 
of the aircraft. This method produced similar results to what was 
described by the Department of Defense and aviation strategy. However, 
commercial contract aircraft are not under contract for 365 days. 
Typically, the Forest Service enters into exclusive use contracts for 
140 to 180 days depending on the contract requirements.
    The Forest Service has engaged with private industry throughout the 
next generation contract process going back several years to gauge 
their ability to provide next generation aircraft and technology. Since 
2002, only one next generation large airtanker has been offered by 
private industry. However, based on the response to the next generation 
Request for Information, the Forest Service is optimistic that private 
industry will be able to deliver reliable and airworthy next generation 
large airtankers. These are unproven airtankers, some with new design 
retardant delivery systems, which will take time to evaluate and modify 
to fully meet the requirements.
    Question 11c. The commercial operators have to make a very large 
financial commitment up front with no guarantee of success. Is the 
Forest Service equally committed to fielding an all Next General tanker 
fleet?
    Answer. The Forest Service has held annual Airtanker Forums to 
maintain open communication and stay engaged with private industry as 
we began the next generation contract process. During these meetings, 
the private industry has said that they realize the investment in next 
generation aircraft is a larger financial commitment and risk than they 
are used to, but they were and are willing to make the commitment. The 
contract length for the next generation airtanker will be extended to 
10 total years (five base plus five one year options) to spread out the 
financial risk at private industry's request.
    Question 12. There were more than 40 large air-tankers under 
contract 10 years ago. How did the strategy arrive at 26 as the right 
number for the future?
    Answer. In the Large Airtanker Modernization Strategy, the 
conclusion that 18 to 28 aircraft are needed is based on several 
analyses, past and current use, and collaboration with the Department 
of the Interior. The requirements for large airtankers have been 
derived from the National Interagency Aviation Council Phase III 
Report, dated December 7, 2007, which noted the need for up to 25 large 
airtankers. Increased effectiveness and improved speed and quantity of 
retardant impacts the need for planes. In 2009 and 2010 the Forest 
Service successfully operated with 18 planes. The Forest Service will 
continue to monitor fire risk and plane capability to determine the 
most effective fleet size.
    Question 13. You heard what I had to say in my opening statement 
concerning a viable strategy for replacing the legacy fire air-tankers. 
I do want to recognize that you have included a request for $24 million 
for air-tanker modernization and I commend you for including that. If 
it does get funded, how will those funds be expended?
    Answer. The funding will pay for contract costs associated with 
additional next generation aircraft in accordance with our 
modernization strategy.
    Question 14. Several weeks ago Senators Feinstein, Wyden and I sent 
Secretary Vilsack a letter about the diversification of your 
firefighting air-tanker fleet. When will I have an answer from the 
Department to that letter?
    Answer. The letter addressing the Forest Service's wildland fire 
aviation program was signed by Secretary Vilsack and mailed to you, 
Senator Feinstein and Senator Wyden on March 29, 2012.
    Question 15. Last August, you issued a Request For Information to 
help in your efforts to further diversify your aerial firefighting 
fleet with fixed-wing water scooping aircraft. The state forester of 
Alaska relies on water-scooping aircraft as an essential and effective 
fire suppression asset. Could you give us an update on this effort and 
provide the number of this type of aircraft that are likely to be 
included in an RFP?
    Answer. The Forest Service is collaborating with the Department of 
the Interior on their existing water scooper contract. The contract 
will add additional days to the contract to facilitate bringing the 
scoopers down to the lower-48 as the fire season moderates in Alaska. 
Also in cooperation with the Department of the Interior, there will be 
a solicitation for turbine water scoopers which could add two to eight 
more scoopers to the aerial firefighting fleet.
    Question 16a. How many Very Large Air-Tankers are likely to be 
included in the mix of aircraft types that your agency will attempt to 
find funding for?
    Answer. Similar to previous years, there will be one (1) very large 
airtanker (VLAT) available in 2012. The VLAT is funded through a Call-
When-Needed (CWN) contract. The decision to contract the very large 
airtanker on a CWN contract maintains the availability of the aircraft 
during periods of moderate to high demand, without committing the 
Forest Service to paying for a very expensive aircraft when there is no 
demand.
              wallow fire and recovery and rehabilitation
    As you know, last year's fire season was etched in history by the 
Wallow Fire in eastern Arizona that burned 538,000 acres in the scenic 
White Mountains, making it the largest fire on record in the entire 
southwestern region of the United States. Chief Tidwell, stated that 
the response to this fire must be immediate and sustained. He promised 
Arizonans that the Forest Service would be fully committed to the 
recovery and rehabilitation mission in the post-fire environment. An 
independent assessment team from the Forest Service identified 
approximately $100 million worth of needed rehabilitation projects in 
the Wallow Fire burned area through FY 2018.
    The current budget proposes to move Rehabilitation and Restoration 
line-item to the National Forest System appropriation and continue 
these activities as part of Integrated Resource Restoration. It is also 
my understanding that there are other line items that typically were 
used to accomplish recovery activities that are also now under this IRR 
making it very difficult to even determine if the Forest Service plans 
to do anything in FY 2013 with regard to recovery from this historic 
fire.
    Question 16b. What can you tell us about the recovery effort and 
this budget to help reassure the Committee that the Forest Service is 
truly committed to that immediate and sustained recovery you talked 
about during the fire?
    Answer. The Southwestern Region considers Wallow Fire recovery, 
along with other large fire recovery, to be a major regional project 
and is allocating additional funding to the specific fire recovery 
projects. The Southwestern Region and the Apache-Sitgreaves National 
Forest are highly committed to the recovery of the Wallow Fire area. 
The Regional Leadership Team included large fire rehabilitation and 
recovery as a major regional project in the FY 2011 budget allocation 
process and was able to partially fund the recovery needs of Wallow and 
other large FY 2011 fires utilizing IRR in FY 2012. The Forest Service 
has moved to a boundary-less organization to accommodate priority work 
related to recovery of the fire area. Resources from all five Ranger 
Districts have been allocated to support range re-stocking, the Wallow 
West Salvage project, a trails damage assessment, repair, and 
maintenance, and other critical work in the fire area.
    Burned Area Emergency Response (BAER) work was essentially 
completed within three months of the fire. In an attempt to minimize 
anticipated post-fire damages, over $28,000,000 was spent to seed and 
mulch about 34,000 acres of the most severely burned areas and to seed 
an additional 47,000 acres. Hundreds of miles of roads and channels 
were stabilized against flood damages and dangerous hazard trees were 
removed along roads. An additional $3,000,000 was spent last fall to 
perform priority rehabilitation work to support range livestock 
restocking, road and trail safety, and wildlife habitat recovery.
    In FY 2012, the Forest will spend over $2,000,000 to perform 
critical work. Current FY 2012 work plans include repair and 
reconstruction of priority high-use trails, reconstruction of burned 
pasture and allotment fences, installation of beetle pheromone packets 
to protect burned areas from beetle invasion in Mexican spotted owl 
Protected Activity Centers (PACs) and developed campgrounds, wildlife 
surveys to support salvage, and other recovery work.
    Additional temporary personnel are being hired in the areas of 
wildlife biology, range management, and National Environmental Policy 
Act (NEPA) compliance to assist with recovery projects. The Forest 
Service is hiring a two-year term volunteer coordinator to manage 
partnerships and volunteers interested in recovery work in the fire 
area, as well as an Apache Trout Coordinator, in partnership with 
Arizona Game and Fish, to focus on recovery of that species.
    The Forest has completed National Environmental Policy Act (NEPA) 
Section 18 reviews in several areas allocated to the White Mountain 
Stewardship Contract that were burned in the fire. The purpose of 
Section 18 review is to determine if changed conditions warrant 
additional analysis.
    Region 3 is currently planning the program of work for Fiscal Year 
2013, including a significant number of fire recovery projects for the 
Wallow Fire as well as other 2011 fires. Fire recovery and 
rehabilitation continues to be a high priority in the Region. The 
Apache-Sitgreaves National Forest is continuing to monitor completed 
work on the Wallow Fire as well as to assess work still needed, and is 
fine-tuning projects to be completed in FY 2013. Environmental analysis 
for the Wallow West project is nearing completion, which will outline 
specific actions for the FY 2013 program of work.
               wallow fire nepa--alternative arrangements
    Recovery after a fire of this magnitude requires resources and 
skill sets above and beyond what the Apache Sitgreaves National Forests 
has readily available. An area of particular concern that can cause 
significant delays to getting needed work accomplished is environmental 
compliance requirements. As you know, compliance with National 
Environmental Policy Act (NEPA) can be time consuming, expensive and 
difficult under the best of circumstances, but after a 500,000+ acre 
fire it can be nearly impossible. Already the NEPA is complicating the 
response and causing significant delays in getting work accomplished on 
the ground.
    The Arizona delegation wrote to you in July of last year urging you 
to request that CEQ grant alternative arrangements for compliance with 
NEPA for the activities needed to respond to this fire.
    Question 17a. Why hasn't CEQ been asked to assist this Forest with 
NEPA?
    Question 17b. Would you please outline the costs, recourses and 
timelines for the NEPA compliance that will be necessary for the 
recovery projects needed to restore the Wallow Fire Area?
    Answer. Typically CEQ gets involved on a large post-fire NEPA 
evaluation to determine whether Alternative Arrangements (40 CFR 
Section 1506.11) (36 CFR Section 220.4) would apply to any proposed 
projects. The Forest held discussions with CEQ, and based on the Burned 
Area Emergency Rehabilitation (BAER) work completed, the 
recommendations from the Rapid Assessment Team (RAT), and other actions 
being undertaken, we believe that Alternative Arrangements are not 
appropriate at this time. We will continue to work with CEQ to 
determine whether alternative arrangements are appropriate for future 
recovery projects.
    The Forest has begun planning on the Wallow West project. This will 
provide the NEPA compliance for a large portion of the fire area. A 
decision is expected in June 2012, with implementation anticipated to 
begin in the summer of 2012. Funding levels support the use of existing 
personnel to undertake the primary analysis of the Wallow West project. 
Planning for the Wallow West Salvage is projected to cost approximately 
$300,000.
                           salvage work/wmsc
    The recovery effort after the Wallow Fire must include economic 
recovery. There are tremendous opportunities and needs to remove dead 
and dying trees across the Wallow Fire Area. If the Forest Service 
moves quickly, while these trees still have value, this work can be 
accomplished at no cost to the Forest Service and can provide a needed 
boost to industry. The Chief testified before this committee that we 
have only a short window of opportunity to get the economic value out 
of these dead trees and that you would be doing everything possible to 
capture this value. In addition, the 49,000 acres of treatments 
accomplished through the White Mountain Stewardship Contract (WMSC) are 
credited with saving many of the affected Wallow Fire communities, yet 
we are wondering why more hasn't been done to use this contract to 
accomplish salvage work and other needed work in the green acres going 
forward. This fire has a huge economic impact on the WMSC contractors, 
the local businesses that rely on wood from the contract and the 
regional economy at large.
    Question 18. Please explain what has been done with respect to 
salvage beyond the hazard tree removal along roadways that occurred 
this past fall.
    Answer. Planning for the Wallow West salvage area has been on-going 
since November 2011 and is scheduled for decision in June 2012. The 
Forest has completed Section 18 NEPA reviews in areas committed to the 
White Mountain Stewardship Contract (WMSC) that were burned in the 
Wallow Fire. The purpose of Section 18 review is to determine if 
changed conditions warrant additional analysis. Treatments are 
occurring only in areas where conditions did not necessitate new 
analysis.
    Subsequently, we have awarded three Task Orders to the WMSC for 
approximately 3,000 acres of salvage in these areas. We are currently 
preparing a fourth task order for 2,900 acres. We are also removing 
additional salvage in proximity of dispersed recreation sites and along 
open roads. Upon completion of the Wallow West environmental analysis, 
the Forest Service plans to begin an analysis of another large area for 
salvage around the communities of Alpine and Nutrioso, Arizona.
    Question 19. How does the WMSC fit into the Wallow Fire Recovery 
effort and the salvage work specifically?
    Answer. The WMSC has entered into an agreement to treat the fire 
salvage trees at zero cost to the Government in a goods-for-services 
framework. The work to be done includes removal of burned trees in a 
manner consistent with restoration of this vegetation type, and 
redistribution of course woody debris to reduce erosion and other 
potential watershed impacts from the loss of ground cover. Traditional 
costs of WMSC treating ``green'' trees generally range upward of $450-- 
$500 per acre. Approximately 287 miles of roadside hazard trees have 
already been sold competitively, and an additional 250 miles of 
roadside hazard tree salvage are left to sell. Task Orders, with 
Section 18 NEPA, have been issued to WMSC for approximately 5,900 acres 
of burned over land. The Forest Service will make an anticipated 15,500 
acres in Wallow West Project Salvage available to WMSC. Additional 
salvage within the Wallow Fire, outside the Wallow West area, will be 
open to competition for bids.
    Question 20. What is the Forest Service doing to help communities 
in the Wallow fire-area recover economically?
    Answer. The Apache-Sitgreaves National Forest is working diligently 
to support communities that rely on the Forest for economic livelihood. 
Roadside salvage sales are supporting local industry and markets in 
both northeastern Arizona and some communities in nearby New Mexico. 
Current additional planned salvage will also support local industries 
in the White Mountains communities.
    The Forest reopened popular recreation areas such as Big Lake and 
Crescent Lake that draw tourists who contribute to local businesses. We 
worked with Arizona Game and Fish Department shortly after the fire to 
ensure safe access for hunting within the fire perimeter to support 
local outfitter and guides.
    The Forest made personal use firewood available at $5/cord, reduced 
from the normal $10 to $20/cord. The Forest Service has completed a 
damage assessment for trails within the fire perimeter; as a result, we 
are prioritizing trail repair and maintenance work to accommodate the 
local users and outfitter guides so popular areas are accessible when 
the season starts.
    Range livestock restocking will occur within the fire area 
dependent upon resource conditions. The Forest has completed an 
assessment of all range allotments affected by the fire and is working 
closely with permittees on appropriate restocking levels that will 
support the viability of their livestock operations while allowing 
recovery of the moderate to high severity burned areas. The Forest 
Service has also purchased and is allocating fencing materials to 
permittees to assist in the replacement of critical infrastructure 
required for restocking.
                         recreation fee program
    Question 21. The Forest Service has authority from Congress under 
the Federal Lands Recreation Enhancement Act to collect and retain 
recreation fees from the American public, subject to specific 
requirements and restrictions. For example, your agency must accept 
federal interagency passes, including lifetime senior and disable 
passes, at places where a standard amenity fee is charges.
    When your agency contracts with a private concessionaire to manage 
a federally owned recreation facility, do you require the 
concessionaire to accept the same federal passes and meet the other 
requirements that Congress has established?
    Answer. Concessionaires are required to honor senior and access 
passes for a 50 percent discount on camping. This has been a 
requirement in concession policy for many years and is addressed in 
Forest Service Directives at 2344.31. It has also been a requirement in 
prospectuses that offer these campgrounds for concession management. 
Concessionaires are not required to honor passes for free admission. 
The Department of Labor deems such a requirement as disqualifying a 
permit from the Service Contract Act exemption. The concession program 
relies on the exemption for economic viability.
    Further, the Federal Lands Recreation Enhancement Act exempts 
activities authorized by other statutes from its requirements (16 
U.S.C. sec 6813(e)). As campground and related recreation facility 
concessions are authorized under the Granger-Thye Act they are exempted 
from the Federal Lands Recreation Enhancement Act.
    Question 22. Is it true that some Forest Service concessionaires 
are being allowed to issue their own private passes to use federal 
facilities, while refusing to accept federally-issued passes?
    What would you say to senior and disabled constituents who say 
their lifetime passes are not being honored according to the terms they 
were promised?
    Answer. Yes, some concessionaires have issued their own passes, but 
this practice is not common. Concessionaires are authorized under the 
Granger-Thye Act. When a potential concessionaire applies for a permit, 
they submit a proposal that includes their proposed customer charges. 
This may include various pricing strategies. Since Concessioners are 
not required to honor passes for free use, a pass proposal would be 
considered.
                         agency run campgrounds
    Question 23. Congress granted the Forest Service the authority to 
retain campground fees so that you could operate these campgrounds 
using retained revenues. Many constituents tell the Committee they 
prefer to see federal facilities run by agency employees.
    Why aren't you doing that?
    Answer. The Forest Service campground concession program is 30 
years old. It predates Fee Demonstration and the Federal Lands 
Recreation Enhancement Act. It began as an experiment to provide 
services to the public using private concessionaires due to limited 
agency staff funding budgets. It has grown into a successful industry 
and the agency no longer maintains the level of staffing to provide 
these services by the government.
    Additionally, when Fee Demonstration started, Congress passed 
several appropriation provisions that prevented the Forest Service from 
removing successful business opportunities from the concession program.
    Permit fees to be paid to the federal government and the fees 
charged to the public are two criteria evaluated when concessions 
compete to be issued a special use permit. Fees typically range between 
5 percent and 15 percent of gross revenue, depending on the 
competitiveness of the facilities offered. Because campground 
concessions are authorized under the Granger-Thye Act, fees can be and 
are reinvested in maintenance of the facility improvements.
                       ninth circuit court ruling
    Question 24. A recent ruling by the 9th Circuit Court of Appeals 
found that the Forest Service has exceeded its authority by requiring 
fees from people who simply park their vehicle and go for a hike, or 
who camp in undeveloped parts of a National Forest. The ruling 
concerned a case on the Coronado National Forest, but you are charging 
the same kind of fees at hundreds, maybe thousands, of other places 
too. Based upon statements from the Forest Service that have recently 
appeared in the press, it appears that the agency has decided that this 
ruling is not universally applicable throughout the National Forest 
system and won't be applied everywhere. How can the agency make such a 
claim in light of the absolutely clear direction provided by the 9th 
Circuit Court of Appeals?
    Answer. The 9th Circuit Court of Appeals reversed and remanded the 
decision of the Arizona District Court. The agency is waiting for the 
order from the District court.
    The Forest Service is taking the Court's opinion very seriously 
and, prior to the Court's decision, had already been working to improve 
implementation of the Federal Lands Recreation Enhancement Act, 
especially as it pertains to large recreation fee areas, known as high 
impact recreation areas.
    The Forest Service reviewed all large recreation fee areas and in 
January, prior to the court's decision made preliminary proposals on 
their future status. Under these proposals, over 75 percent of the 
current large forest standard amenity recreation fee areas will be 
eliminated. All of these changes are in line with the Court's decision. 
Sites will be officially removed from the program following public 
involvement, including review and recommendation by the local 
Recreation Resource Advisory Committees, as required by the Federal 
Lands Recreation Enhancement Act. The remaining 25 percent of the fee 
areas will be reviewed again in light of the Court's decision.
                            forest planning
    Question 25. The forest planning rule preferred alternative asks 
for permanent buffer zones on ephemeral/intermittent streams. This is 
of particular concern in a state like Arizona, where seasonal rains 
create countless temporary streams.
    Has the agency considered the potential economic impact to those 
parties who have permits within these areas?
    Answer. Most existing permits for activities within riparian areas 
already include direction for protection of riparian and water 
resources.
    The Planning Rule does not directly affect any ongoing projects or 
activities. It establishes a framework for the development, amendment 
and revision of land management plans. As land management plans are 
revised using the new planning rule, those activities will be reviewed 
to ensure that they are consistent with the new plan and to determine 
whether any changes need to be made to the management activities or to 
the permit. It is only at that time that economic effect to parties, 
which have permits within specific areas, could be evaluated.
    Question 26. How will the Forest Service enforce these buffer 
zones?
    And what will it cost the agency to provide proper signage to 
identify the buffer zones?
    Answer. The 1982 Planning Rule has been used to develop, amend or 
revise all land management plans to date and included a very similar 
requirement to the one in the new Planning Rule. As a result all 
existing land management plans include direction for protecting or 
restoring these buffer zone areas. Enforcement under the new rule will 
be similar to past practices. The Forest Service will ensure that plans 
include appropriate direction to meet the intent of the planning rule. 
Activities on National Forest System lands will be designed to be 
consistent with the direction included in plans, and monitoring will be 
conducted to ensure that projects are implemented as they were 
designed.
    The agency does not expect to sign riparian zones unless there is a 
site specific reason, such as a rare resource or a unique site. The 
riparian management zones are not an exclusion zone, so signing them 
would not be a high priority for limited signage funds.
                            grazing programs
    Question 27. Just last year Congress decided to increase the range/
grazing management budget. Would the administration propose to cut that 
budget by $15 million--reducing it to well below FY 2011 levels?
    Answer. The FY 2013 President's Budget proposes $40,380,000 for 
Grazing Management; a program decrease of $14,976,000 from the FY 2012 
enacted appropriation. This budget proposal balances the projected 
workloads with the need to reduce the national deficit. Funding the 
Grazing Management Program supports two primary activities: 
administering livestock grazing use on approximately 90 million acres 
of National Forest System lands and approximately 10 million acres of 
private land within grazing allotments; and completing National 
Environmental Policy Act (NEPA) analysis on grazing allotments in 
accordance with the NEPA schedule established under the provisions of 
the Rescissions Act of 1995 (P.L. 104-19, section 504). In FY 2013, the 
administration of permits will be emphasized.
    Question 28. How do you propose to keep pace with permit renewals 
given the NEPA backlog, or deal with ever-increasing litigation costs, 
while cutting the range budget?
    Won't more missed deadlines, due to lack of resources, lead to more 
litigation--thereby creating a self-perpetuating, vicious cycle?
    Answer. The renewal or reissuance of grazing permits is not 
directly linked to the completion of NEPA process. Permits will be 
renewed or reissued as quickly as possible. Where an allotment is NEPA 
sufficient, permits are issued after consultation with the permittee. 
Where there is insufficient NEPA, the allotment is placed on a schedule 
for NEPA completion, per the Rescissions Act of 1995, and a permit is 
issued with the same terms and conditions as the expired permit.
    The 1995 Rescissions Act required the Forest Service to establish 
and adhere to a schedule in order to complete decisions on grazing 
allotments which require NEPA analysis. In 1996, a schedule was 
established for 1995 through 2010 which included 6,886 allotments.
    In the FY 2004 Appropriations Act, Congress authorized the 
Secretary to use discretion to set the priority and timing for 
completing grazing NEPA analysis, the Rescissions schedule 
notwithstanding. The Rescissions Act does not expire; however, the 
Rescissions schedule was updated in 2008 and 2010 to ensure that all 
allotments requiring NEPA process are scheduled. In 2010, the grazing 
NEPA schedule was updated to incorporate all allotments needing NEPA, 
including both those allotments that were listed and were not listed on 
the 1995 schedule. The updated schedule covers the years 2011-2019, 
with annual review and update as necessary.
                            land acquisition
    Question 29. The President has proposed millions of dollars in 
decreases to programs that provide economic benefits to the country, 
while simultaneously proposing a $70 million increase to a fund (the 
Land Water Conservation Fund) to grow the federal estate--$5.4 million 
for the Forest Service alone.
    How does your agency intend to juxtapose an increase in land 
ownership while keeping pace with management responsibilities? How 
would you rate your ability to keep up with current land management 
duties, such as catastrophic wildfire control and grazing permit 
renewals?
    Answer. Land acquisition can reduce management costs by 
consolidating landownership, avoiding further fragmented development 
within forest boundaries which can exacerbate fire, insect, and disease 
management challenges. Land acquisitions sought by the Forest Service 
have broad support by stakeholders at the local level and ensure water 
quality, recreational access, wildlife habitat, and other public 
benefits, including the benefits these acquisitions have on local and 
regional economies. Land acquisition is one land adjustment tool we 
have to promote the long-term health and sustainability of the national 
forests and grasslands and thereby protect taxpayer investments in 
National Forest System lands.
    We continue to have sufficient capacity to keep up with land 
management duties for grazing permit renewals. In FY 2013, Grazing 
Management program will emphasize administration of permits. Economic 
conditions for livestock producers continues to rapidly improve due to 
increases to near record prices for meat, which may create increased 
demand for grazing use. However, there is very little grazing available 
for further permitting on National Forest System lands. Forest Service 
grazing allotments are utilized to the optimum/maximum levels; or in 
the case of vacant allotments, associated permittee management costs 
make those allotments uneconomical to use, due to their remote 
locations and difficult access.
    We also continue to have sufficient funds for wildland fire 
management. In the FY 2013 budget we requested funding in Suppression 
and FLAME to fully fund the 10-year average of wildfire suppression 
costs. We have also requested a level of Preparedness funding that 
fully reflects the cost of readiness resources and program management, 
including an additional $24 million to pay for the increased costs of 
modernizing the firefighting large airtanker fleet.
                           timber management
    Question 30. In a report, ``Increasing the Pace of Restoration and 
Job Creation on the National Forest,'' you cite 12.5 million acres as 
needing mechanical treatments, with an increased acreage to 212,000 
acres of mechanical treatments in FY 2012. At that pace, it will take 
59 years to treat just the 12.5 acres you cite in you in your own 
report.
    Question 31. Is that an acceptable pace, given how far behind the 
Forest Service is with issues like pine beetles in the Rocky Mountains, 
drought in Texas, and aspen management in the Lake States?
    Answer. Restoration and management of national forests and 
grasslands are critically needed to address a variety of threats to the 
health of our forest ecosystems, watersheds, and forest-dependent 
communities including; fire, effects of a changing climate, insect and 
disease outbreaks such as Bark Beetle. Increasing the pace restoration 
and management activities is beneficial to national forests and 
grasslands and creates or maintains local economies.
    The FY 2013 President's Budget proposes $793,124,000 as a single 
Integrated Resource Restoration (IRR) budget line item (BLI). By 
realigning funding, IRR focuses agency resources on integrated 
ecosystem restoration projects. A variety of activities are emphasized 
under IRR include those necessary to maintain, enhance, or restore 
watersheds at the landscape level, and statutory activities needed for 
sound resource management. Working through the IRR Pilot approved for 
FY 2012, the Forest Service will be positioned to integrate watershed 
conservation and to increase the pace of restoration of national 
forests and grasslands creating or maintaining local economic 
opportunities, jobs, and strengthen partnerships.
    The Forest Service is focused on active management and is striving 
to implement existing programs as well as pursuing a number of agency 
actions that will increase restoration and resilience of national 
forest and grasslands though active management. These actions include 
but are not limited to:

  <bullet> Expanding Collaboration Landscape Partnerships
  <bullet> Finalizing and Implementing the Proposed Planning Rule
  <bullet> Implementing the Watershed Condition Framework
  <bullet> Implementing Integrated Resource Restoration Budget Line 
        Item
  <bullet> Improving the Efficiency of the NEPA Process for Restoration
  <bullet> Implementation of the Agency's Bark Beetle Strategy
  <bullet> Expanding the use of Stewardship contracting
  <bullet> Ensuring Improvement of Implementation and Efficiency of 
        Timber and Stewardship Contracts
  <bullet> Expanding Markets for Forest Products including Woody 
        Biomass Utilization and Green-Building Materials.

    In addition to these actions, over the next three years the Forest 
Service is committed to increasing the number of acres being 
mechanically treated by 20 percent. This increase would allow the 
Forest Service to increase the number of acres and watersheds restored, 
while supporting jobs and increasing annual forest product sales to 3 
billion board feet.
    Question 32. How will the proposed $75 million reduction in 
Hazardous Fuels funding affect the pace of restoration?
    Answer. The $75 million represents the amount of hazardous fuels 
program funding proposed to shift to Integrated Resource Restoration 
(IRR) in FY 2013. These are hazardous fuel funds that have 
traditionally been spent outside the wildland urban interface (WUI) and 
for restoration in previous years. These funds are proposed to be 
shifted into IRR to support integrated restoration and accomplish 
landscape scale ecosystem restoration, which includes hazardous fuel 
reduction. The $241 million requested in the hazardous fuels program 
will be focused on the Wildland Urban Interface and other high priority 
areas which also includes restoration work.
    Question 33. What steps are you taking to track and then reduce 
unit costs for the timber sale program?
    Answer. Timber sale unit costs are determined by the level of 
funding appropriated to the forest management program and the timber 
volume sold in the same fiscal year. The President's FY 2013 proposal 
for IRR includes funding for forest management and other restoration, 
enhancement, and maintenance activities. The expected timber volume 
sold target is 2,800 MMBF. This funding and output level could result 
in a decrease in forest management unit cost for FY 2013.
    Question 34. Do you envision that restoration replacing the goals 
and objectives in the forest plans that are currently in place?
    Answer. The Forest Service's Restoration Policy detailed in the 
Forest Service Manual chapter 2020 does not replace the Land Management 
Plans. Land Management Plans (LMPs) guide the management of National 
Forest System lands so that they are ecologically sustainable and 
contribute to social and economic sustainability, with resilient 
ecosystems and watersheds, diverse plant and animal communities, and 
the capacity to provide people and communities with a range of uses 
including, timber, grazing, minerals and energy as well as hunting and 
fishing, recreation, wilderness, and cultural uses.
    The goals and objectives of LMPs will include an emphasis on 
restoration, public involvement, and sustainable management to provide 
benefits and services both today and for future generations while 
sustaining the health, diversity, and productivity of the nation's 
forests and grasslands.
    Restoration and management of the national forests and grasslands 
are critically needed to address a variety of threats including fire, a 
changing climate, insects and disease outbreaks like the bark beetle 
epidemic. The aim of these efforts is to move beyond the functional 
area resource management towards a shared vision that allows 
conservationists, the forest industry, local communities and other 
interests to work together to provide healthier forests, safer 
communities, and more vibrant local economies.
    The direction in the Forest Service Manual 2020 Ecological 
Restoration and Resilience establishes a comprehensive policy to guide 
achievement of sustainable management of National Forest System lands 
in order to continue providing a broad range of ecosystem services.

  <bullet> Healthy and resilient landscapes have greater capacity to 
        survive natural disturbances and large scale threats to 
        sustainability, especially under changing and uncertain future 
        environmental conditions, such as those driven by climate 
        change and increasing human uses.
  <bullet> The directive articulates foundational policy for 
        restoration of National Forest System lands and associated 
        resources.

    This directive provides the agency additional tools to more 
effectively address new and existing issues such as adaptation to 
climate change and increasing threats from wildfires, insects, 
pathogens, and invasive species.
    Question 35. If there are 65-82 million acres of NFS lands in need 
of restoration, and only 12.5 million of those acres require mechanical 
treatments, how do you expect to achieve restoration objectives on the 
acres where mechanical treatment is not required?
    Answer. The emphasis of active management in the form of 
restoration, maintenance, and enhancement of landscapes includes 
various activities associated with IRR: forest management, range 
management, wildlife & fisheries habitat management, vegetation & 
watershed management, hazardous fuels management in non-Wildland Urban 
Interface (non-WUI) areas, road decommissioning, and activities 
previously accomplished under the Legacy Roads and Trails and 
Rehabilitation and Restoration programs. Many of the restoration and 
management activities involve non-mechanical treatment including 
reforestation, rangeland improvements, invasive species treatments, 
terrestrial habitat improved for wildlife, soil and water resource 
improvements, and non-Wildland Urban Interface fuel treatments.
    Question 36. Why not prioritize the acres that need mechanical 
treatment, and give a lower priority to restoration where mechanical 
treatments cannot be used?
    Answer. The appropriate resource tool either mechanical or non-
mechanical can best be used, in a wide variety of circumstances, to 
achieve the desired resource objectives and will therefore receive 
prioritization. The Secretary of Agriculture's vision for active forest 
management advances the role of healthy forests to protect and enhance 
water resources and to maintain landscape resilience in response to 
impacts of a changing climate and other stressors. The Integrated 
Resource Restoration program focuses on landscape scale activities that 
promote watershed resilience. Active management of national forests and 
grasslands is critical in addressing threats to health and safety of 
forest-dependent communities and watersheds. Integrated Resource 
Restoration enhances the capacity of the agency to increase the pace 
and scale of restoration activities nation-wide.
    Question 37. Chief, does the Forest Service consider acres burned 
as part of Wildland Fire Use fires to the acres treated under the 
Hazardous Fuels Reduction Program?
    Answer. After the updated ``Guidance for Implementation of Federal 
Wildland Fire Management Policy'' was approved in February of 2009, the 
Forest Service issued direction that revised our approach to wildland 
fire policy implementation. That direction eliminated the ``Wildland 
Fire Use'' category of wildland fires.
    This change enabled the Forest Service to track acres burned by 
wildfire, even fires being actively suppressed, that accomplished fuel 
treatment objectives and met desired conditions described in the 
applicable land management plan. Acres burned from unplanned natural 
ignition are assessed to determine if the vegetation and other 
ecosystem components moved closer to desired conditions described in 
the Forest Land and Resource Management Plan.
    If it is determined that the acres burned from naturally-ignited 
wildfires met the desired conditions in the Forest Land and Resource 
Management Plan then only through this assessment are the acres allowed 
to be counted as ``acres treated'' under the Hazardous Fuels Reduction 
Program. Human caused wildfires are not considered ``acres treated.''
    Question 38. How many Wildland Fire Use Fires have subsequently 
become Type 1 incidents in the last 10 years? In other words, are fires 
that you are letting burn to accomplish resource objectives 
subsequently endangering communities?
    Answer. We have not collected information on the number of 
``Wildland Fire Use'' fires that converted to Type 1 incidents in the 
past and we are not able to readily produce this information. While a 
formal data collection system is not in place to track the information 
requested, we do monitor the occurrence of undesirable outcomes related 
to the practice of managing certain wildfires for resource benefit, 
regardless of the Type of the incident, in order to learn from those 
incidents and improve future performance.
    Due to the implementation of Federal Wildland Fire Management 
Policy in 2009 the ``Wildland Fire Use'' category of wildland fires was 
abolished. The Forest Service now manages all wildfires with a singular 
approach where we first establish a protection strategy for those 
values at risk. Incident objectives, strategies, and tactics can change 
as the fire spreads across the landscape, due to changes in 
environmental conditions (weather, vegetation, topography), human 
influence, land ownership/jurisdiction, planning unit objectives, 
perceived threats to human safety, predicted threats to property and 
natural resources, opportunities to achieve resource benefits, and 
availability of firefighting resources to accomplish the work. 
Responses to wildfire are also coordinated across levels of government, 
regardless of the jurisdiction at the ignition.
    The agency puts firefighter and public safety as the first priority 
in every fire management activity and never intentionally endangers 
communities for the sake of achieving resource benefits. No natural or 
cultural resource, home, or item of property is worth a human life. All 
strategies and tactics seek to mitigate the risk to firefighters and 
the public. We do however, recognize that a policy of full suppression 
of all wildfires does not eliminate risk, it results in accumulation of 
hazardous fuels and transfers the risk of damage from wildfires and 
deteriorated forest conditions to future generations. That said, after 
all strategies, tactics and objectives are established and risks have 
been identified and mitigated, undesirable outcomes sometimes still 
occur when managing wildfires as it is not within our ability to 
predict every possible weather scenario that could occur over the weeks 
or months that a fire may be managed. The agency is committed to 
completing reviews after wildfire incidents to learn from our successes 
and our failures in the spirit of continuous improvement.
                        stewardship contracting
    Your focus on collaboration is commendable. However, I'm concerned 
that a continued focus on Collaborative management, IRR and Stewardship 
is a consequence of a continued de-emphasis on commercial timber sales.
    Question 39. Do you agree that commercial timber sales can be just 
as important and effective at accomplishing resource objectives?
    Answer. Forest land managed through timber harvest will continue to 
play a critical role in restoration, maintenance, and enhancement of 
national forests and grasslands. The proposed FY 2013 President Budget 
proposes to achieve an output of 2,800 MMBF of volume sold and to treat 
forest lands through timber sale as part of the agency's goal to treat 
forested land to increase watershed function and resilience.
    Question 40. Do you agree on the importance of maintaining the 
forest products industry infrastructure in the US, as a means for you 
to accomplish land management objectives and for the jobs and economic 
contributions in rural communities?
    Answer. The Forest Products Industry is important and has the 
capability and skills that are needed to perform many of the 
restoration, enhancement, and maintenance resource activities needed 
which provide jobs and economic benefits to local communities.
    Question 41. When you look at all of the funding being brought to 
the table in CFLRA projects what is your average cost per acre in 
accomplishing there projects?
    Answer. The FY 2013 President's Budget proposes $40,000,000 for the 
Collaborative Forest Landscape Restoration Program (CFLRP). In FY 2011 
and FY 2012 this program was funded at $24,950,000 ($14,970,000 from 
NFS and $9,980,000 from WFM) and $39,936,000, respectively.
    These appropriated funds and other funds can be matched with 
appropriated, permanent and trust, or partnership funds, in-kind 
contributions, and restoration treatments funded through timber value 
within a stewardship contract. The CFLRP funds may be used to pay up to 
50 percent of the cost of carrying out and monitoring ecological 
restoration treatments that occur on National Forest System (NFS) 
lands.
    The first projects accomplished were reported nationally in FY 2011 
and included the activities listed below. Project implementation and 
accomplishments are expected to increase in FY 2012 as project analyses 
are completed. Projects accomplishment types vary from acres improved 
to stream miles enhanced, and are presented below.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 42. What would it cost to treat all 12.5 million acres of 
Forest Service land you say needs mechanical treatment?
    Answer. The FY 2013 President's Budget proposes a wide variety of 
management activities associated with Integration Resource Restoration 
including those necessary to maintain, enhance, or restore watersheds 
at the landscape level, and meet statutory requirements needed for 
sound resource management. Many of these activities involve non-
mechanical treatment including reforestation, rangeland improvements, 
invasive species treatments, terrestrial habitat improved for wildlife, 
soil and water resource improvements, and non-Wildland Urban Interface 
fuel treatments. Also, under the current budget proposal mechanical 
treatments will play a critical role in accomplishing a variety of 
resource objectives. However, mechanically treating the 12.5 million as 
stated in Increasing the Pace of Restoration and Job Creation on Our 
National Forest would require the equivalent level of funding as 
proposed for IRR in FY 2013, with the appropriate inflation 
adjustments, for a minimum of 60 years.
    Question 43a. Can you become more efficient as you expand treatment 
to additional acres? Or would it be more efficient, at least in some 
cases, to treat acres using commercial timber sales?
    Answer. The Forest Service is focused on active management and is 
striving to implement existing programs as well as pursuing a number of 
agency actions that will increase restoration and resilience of 
national forest and grasslands though active management. These actions 
include but are not limited to:

  <bullet> Expanding Collaboration Landscape Partnerships
  <bullet> Finalizing and Implementing the Proposed Planning Rule
  <bullet> Implementing the Watershed Condition Framework
  <bullet> Implementing Integrated Resource Restoration Budget Line 
        Item
  <bullet> Improving the Efficiency of the NEPA Process for Restoration
  <bullet> Implementation of the Agency's Bark Beetle Strategy
  <bullet> Expanding Stewardship
  <bullet> Ensuring Improvement Implementation and Efficiency of Timber 
        and Stewardship Contracts
  <bullet> Expand Markets for Forest Products including Woody Biomass 
        Utilization and Green-Building Materials.

    In addition to these actions, over the next three years the Forest 
Service is committed to increasing the number of acres being 
mechanically treated by 20 percent. This increase would allow the 
Forest Service to increase the number of acres and watersheds restored, 
while supporting jobs and increasing annual forest products sales.
    The Forest Service uses the most cost effective treatment depending 
on the area involved, the complexities of the project, and whether the 
treated acres have commercial timber of sufficient value to help offset 
the cost. Commercial timber sales are an option in some cases while in 
others stewardship contracting is a better tool.
                               bioenergy
    Question 43b. It's my understanding that USDA has a Biobased 
Marketing Program, called Biopreferred that excludes most forest 
products from the program. Even while most US forest products are 
excluded, foreign competitors like bamboo plywood and paneling are 
included in the program. Given the current state of the US Forest 
products industry, which has seen over 322,000 jobs lost since 2005, 
what impact do you think the White House's recent announcement to 
dramatically increase the use of biobased products, including these 
foreign products, will have on the US forest products industry and the 
ability of your forest managers to keep forests healthy?
    Answer. Consistent with the intent of its authorizing legislation, 
the BioPreferred program focuses on new and emerging markets with 
respect to forest products. The USDA Forest Products Lab--which helps 
develop innovative ways to use our forests to make new consumer 
products--works closely with the BioPerferred program to evaluate 
existing wood-based products for the BioPreferred label. As the supply 
of large-diameter trees has diminished, more and more engineered wood 
products (most of which meet the criteria for the BioPreferred program) 
have been developed to take their place. Such products include cross-
laminated timber, finger jointed studs, laminated strand lumber, and 
structural insulated panels. The President's initiative, Driving 
Innovation and Creating Jobs in Rural America through Biobased and 
Sustainable Product Procurement, will spur further use of biobased 
products, including forestry products.
    However, USDA cannot control the subsidies other countries provide 
for their forest industries. Foreign competition from China, Canada and 
Scandinavia is an increasing issue for U.S. producers as foreign-based 
companies are receiving substantial amounts of public funding for new 
and innovative product platform development that is not being matched 
in the U.S. This influx of public funding for new product platforms in 
foreign countries is putting U.S. producers as a disadvantage in the 
marketplace.
    Question 44. Don't you think this will result in further job losses 
and fewer markets?
    Answer. Biomass removals for energy and biobased products provide 
numerous benefits including improved forest health and productivity as 
well as economic opportunities for the forest products and other 
industries. Creating demand for forest biomass results in new revenue 
opportunities and also reduces fire risk to communities, restores 
healthy forest landscapes, and can provide new income streams for 
forest landowners.
    In January 2011, the Forest Service Strategic Energy Framework was 
completed, setting direction and proactive goals to play a significant 
and long-term role in resolving challenges to energy resources. In FY 
2013, sustainable management and utilization options, systems, and 
practices will continue to be developed to effectively integrate 
biomass production into forest management activities. Funding is 
specifically targeted for programs that encourage market development 
for biomass materials and the use of forest biomass for energy.
    In FY 2013, we will work to develop and implement best management 
practices for sustainable expanded biomass removal; research new woody 
crops varieties that are fast growing, stress-resistant, and resource-
use efficient; develop and disseminate the best science and technology 
for short rotation woody cropping systems; improve harvest, collection, 
handing, and transportation systems; and develop strategies to 
integrate trees for biomass uses into agricultural landscapes.

  <bullet> The President's FY 2013 Budget Proposal includes a national 
        target of 2.7 million green tons of biomass and a continued 
        commitment to the woody biomass utilization feedstock supply 
        study.
  <bullet> The Woody Biomass Grant Utilization Program has harvested 
        and utilized over 3.4 million green tons since 2005.
  <bullet> The Forest Service uses an IMPLAN database and modeling 
        system (IMpact analysis for PLANning) to carry out regional 
        economic studies of the consequences of Agency decisions and 
        proposed actions. For every 2,000 green tons harvested and 
        utilized, approximately 1 job is created or retained; based on 
        IMPLAN. Over 7 years, the Woody Biomass Grant Utilization 
        Program has created or retained approximately 1,700 jobs.
  <bullet> We expect that creating demand and utilization for forests 
        biomass will continue to result in new revenue opportunities 
        and also reduce fire risks to communities, restore healthy 
        forest landscapes, and can provide job opportunities in local 
        communities.

         forest service budget line item accomplishment reports
Forest Research
    In FY 2005 the BLI for Forest Research program shifted from number 
of products produced to a customer satisfaction based BLI that has 
range for a high of 78 percent in FY 2005 down to 72 percent.
    Question 45. Can you help the Committee understand why the change 
was made?
    Answer. The 2005 estimate of customer satisfaction was a percentage 
rating and the result of an initial effort based on responses to reader 
comment cards that were inserted into publications disseminated during 
the fiscal year, and the percentage was calculated as a simple ratio of 
responses indicating satisfactory or better to the total of returned 
comment cards. This was only used for FY 2005.
    It was subsequently replaced with the national American Customer 
Satisfaction Index (ACSI), which is based on a survey of over 10,000 
customers across all of FS R&D units and all products and services. The 
ACSI was developed at the University of Michigan in 1994 and is the 
leading national indicator of customer satisfaction with U.S. products 
and services. This proprietary survey employs a patented, proven 
methodology to measure customer satisfaction. The ACSI scores are 
reported on a scale of 1--100, with an overall average for industry 
around 75. The aggregate federal government ACSI score was 69.4 in 
2009, 64.6 in 2010, and 66.9 in 2011. ACSI scores for industry and 
government sectors can be viewed at www.theacsi.org. The FY 2013 target 
score is 75 in line with the industry average
    Question 46. Can you provide documentation of user surveys that 
support the relatively constant 72 to 75 percent satisfaction numbers 
reported each year? Can you describe steps that have been taken or are 
being taken to increase customer satisfaction from the B- range to the 
B+ or A range?
    Answer. We conduct the ACSI survey every three years, beginning in 
FY 2006, and report the most recent result annually as an index score 
not a percentage. In the FY 2006 survey, we received an ASCI score of 
72, better than the average for Federal agencies of 71. Two actions 
were identified as having the greatest potential for improving customer 
satisfaction with Forest Service R&D: (1) focusing on simplifying 
applications of research results to make them more useful by lay 
people; and (2) making results more available over the internet. Forest 
Service R&D has worked to make improvement in both areas, for example, 
in the period following 2006, Research Stations established science 
applications leadership positions to focus on improving the 
effectiveness of technology transfer, and the Forest Inventory and 
Analysis program improved their on-line information accessible to the 
public. A user can access datasets and use online data tools through 
the FIA Spatial Data Services Center, and such use has been made easier 
and more customer friendly since 2008, leading to increases in 
retrievals by fourfold over 2007 by 2010. Forest Service R&D began 
funding a comprehensive eResearch initiative in 2007 which included 
development of web publication retrieval (Treesearch), and data 
archiving and sharing capability for all research information from data 
sets to full text.
    In FY 2009, we resurveyed our customers, and increased our score to 
75. Planning is underway for the 2012 ACSI survey. We will continue to 
improve mechanisms for our scientists to communicate with customers on 
a regular basis to fully understand their needs, to improve delivery of 
our science through enhanced web tools, and to increase the extent and 
effectiveness of transferring of our technologies and applications.
                       state and private programs
    Question 47a. Have also undergone a number of changes over the last 
decade on what data is reported and how that date is reported.
                         forest health surveys
    Question 47b. Both federal land and private land forest health 
surveys were dropped from the BLI accomplishment reports in FY 2005. 
Can you explain why this BLI was dropped from the annual Budget 
Justification documents?
    Answer. The Forest Health Management annual output measures in the 
Budget Justification were changed in FY 2006 to reflect more meaningful 
measures in addition to streamlining the number of measures being 
reported on. The acres reported for forest health surveys did not have 
a high level of accuracy and were not sensitive to budget changes. 
Thus, regardless of overall funding levels, a similar amount of acres 
were surveyed from year to year. Funding for surveys are part of the 
base funding provided to Forest Service field units as well as State 
partners to support a number of activities including technical 
assistance and surveys. On average, funding for these activities has 
remained relatively stable over the last few years. The five-year 
average or acres surveyed is only three percent less than the 10-year 
average. The difference can be generally explained by the need (the 
intent is not to survey all forested areas every year), weather, and 
logistics.
    Question 48. While it appears that the acres surveyed on federal 
lands were increasing from FY 2002--FY 2004, the number of private land 
surveys was dropping; can you explain both of those two trend lines and 
provide the Committee with an estimate of the number of acres surveyed 
in both categories in FY 2011?
    Answer. As reported in the Budget Justification, acres surveyed 
from FY2002-2004 have generally increased on federal lands while 
decreasing on cooperative lands. It is difficult to establish a trend 
line based upon three-years of data due to the focus of the surveys 
(both specific areas and extent) and the amount of uncertainty in these 
types of surveys which can affect the number of acres surveyed. Annual 
surveys are not conducted over all areas every year, but focus 
specifically on areas where previous damage was noted or suspected of a 
new pest outbreak. Additionally, some areas of interest are not 
surveyed in a given year due to unforeseen events such as weather 
conditions or fires. The number of acres surveyed in 2004 as compared 
to 2002 was 2.76 percent less (14 million acres), well within the 
margin of uncertainty. Additionally, the number of acres surveyed in 
2003 increased from 2002, but decreased again in 2004 illustrating the 
variability in the number of acres surveyed from year to year. If 
plotted on a graph, this data would not indicate either an upward or 
downward trend.
    The Forest Service estimated the number of acres surveyed in 2011 
for cooperative lands (State and private) was 392,178,888 acres and for 
federal lands was 198,228,627 acres. These figures only include 
aerially surveyed acres and do not include other types of surveys such 
as trapping or ground surveys.
    Question 49. The number of acres of forest health acres protected 
on Cooperative lands (private and State) has fallen from a high of 
1,566,845 acres in FY 2004 to only 625,714 in FY 2011 an average more 
that 865,207 per year for the decade; what has caused this drop in 
production?
    Answer. There was an error in reporting the 2004 actual 
accomplishments in the 2006 Budget Justification Overview section on 
Activity/Output Measures (page F-1). The detailed sections in the 
document show that 712,165 acres were treated on cooperative lands 
using Forest Health Management funds (National Fire Plan 
accomplishments are listed separately) (page 6-9). Comparing 2004 to 
2011 treated acres, the difference is 85,451 acres (12 percent fewer 
acres treated in 2011 than in 2004). The difference was due to treating 
different pests and using different treatment methods, which can vary 
from year-to-year.
    Question 50. Over the last decade discretionary appropriations for 
the Forest Service has ranged from $4.8 million to $6.1 million; can 
you explain why the FY 2011 acres protected is only 40 percent of the 
decade high and only 72 percent of the decadal average accomplishment 
for this line item?
    Answer. Treated acres using Forest Health Management funds on 
cooperative lands have been cyclic over the last 10-years. Acres 
treated peaked in 2002 and again in 2008 due to increases in pest 
populations, in particular the European gypsy moth. In addition, 
specific treatment types vary from year to year with corresponding 
variation in costs and acres treated.
                         state fire assistance
    Question 51. The number of communities receiving State fire 
assistance has fallen from 16,658 in FY 2007 to only 3,843 communities 
in FY 2011, yet your recent budget requests have been for less funding 
rather than more. Why are you not requesting increased communities 
deserve assistance?
    Answer. Although only 3,843 communities were assisted in FY 2011 
with regular State Fire Assistance funding, an additional 10,881 
communities were assisted in FY 2011 with National Fire Plan State Fire 
Assistance funding for a total of 14,224 communities assisted.
    The level of State Fire Assistance funding requested for FY 2013 
will allow State forestry agencies and the Forest Service to continue 
to provide initial attack capabilities for wildland fires while 
assisting as many communities as possible with planning and hazardous 
fuels mitigation projects. State forestry agencies distribute funding 
to priority areas and projects so that those communities at substantial 
risk from wildland fire are assisted.
    There are numerous communities considered to be at high risk of 
damage from wildland fire and are primarily located within the Wildland 
Urban Interface. As a result of funding provided by the State Fire 
Assistance program, these communities are better able to prepare for, 
and survive a catastrophic wildland fire. State forestry agencies 
distribute funding to priority areas and projects. Each State Forester 
determines the priority areas and projects for funding each year. As 
such, the number of communities assisted fluctuates from year to year 
depending on the types of projects selected as priorities. The number 
of communities assisted will vary based on factors such as the per-acre 
cost of treatment, number of acres treated per project and type of 
treatment or planning that is provided. In addition, State Fire 
Assistance funds can be used for capacity building, fire prevention 
education, and preparedness activities to help ensure State and local 
governments continue to reduce fire risk in their communities, and to 
support firefighting capacity within each State. The level of State 
Fire Assistance funding requested for FY 2013 will allow State forestry 
agencies to continue to provide initial attack capabilities for 
wildland fires while assisting as many communities as possible with 
planning and hazardous fuels mitigation projects to reduce their risk 
from wildland fire.
               dropped bli's in the accomplishment report
    Question 52. The following budget line items were dropped from the 
annual accomplishment report in the annual budget justifications; 
please describe why for each of the following: 1) Acres of Stewardship 
incentive plans accomplished on NIPF lands; 2) forest legacy acres 
acquired; 3) Urban and Community Forestry number or communities 
assisted; 4) Economic Action Plans number of communities assisted; and 
5) number of Pacific Northwest Economic Community Action plans 
completed.
    Answer. 1) The Forest Service no longer reports on the acres of 
Stewardship Incentive Plans accomplished on NIPF lands because the 
Stewardship Incentive Program was not reauthorized in the 2002 Farm 
Bill. The agency does report on the acres of nonindustrial private 
forest land that are being managed sustainably under forest stewardship 
management plans as part of the Forest Stewardship Program.
    2) The wording of this measure was changed to be more accurate 
since the Forest Legacy Program is focused on protecting 
environmentally important forests threatened by land conversion. This 
is done not only through fee-simple purchase, but also conservation 
easement. The measure now reported--``acres of environmentally 
important forests and grasslands protected from conversion (number of 
acres added annually)''--is comparable to ``forest legacy acres 
acquired'' from prior years.
    3) This measure was refined to be more outcome-based by focusing 
not just on communities simply receiving assistance, but those 
communities using that assistance to develop or retain established 
urban and community forest programs as a result of assistance from the 
Forest Service.
    4) The Forest Service no longer reports on this measure because the 
Economic Action Program is no longer funded.
    5) The Forest Service no longer reports on this measure because the 
Pacific Northwest Assistance Program is no longer funded.
                         international forestry
    Question 53. From FY 2002--FY 2006, International Forestry reported 
130,000 acres of projects each year; will you provide the Committee 
with the documentation to show how or why that number never varied? And 
will you provide the reason that there is no longer a BLI 
accomplishment reported for International Forestry?
    Answer. We believe that the estimate of 130,000 acres of projects 
per year for International Programs was an estimate made for a single 
year (presumably FY 2002) that was erroneously carried over to the 
following fiscal years without being recalculated. This is not a number 
that we currently track, although we could survey each of our projects 
to obtain an estimate. Other potential measures of program success 
include number of countries with active projects, number of 
organizations and individuals participating in our projects, number of 
individuals trained number of training days, and status of the natural 
resources that are the targets of our projects. For example, a major 
function of our migratory species program is to prevent U.S. breeding 
species from being listed and to help recover endangered species. To 
date, none of our targeted species has been listed, and the endangered 
species upon which we focus the most resources-- Kirtland's Warbler-- 
has increased 80 percent in population from 2001 to 2011.
                        land management planning
    Question 54. The number of land management plan revisions and 
amendments underway in FY 2011 is half or less than the decadal high 
number and significantly lower than the average number accomplished in 
the last decade; can you explain why?
    a)Similarly, the number of monitoring reports has fallen off to 55 
percent of the decadal high and 87 percent of the decadal average, yet 
funding for the forest planning item has been more constant than the 
accomplishments would suggest; please explain the reductions and 
reasons for the reductions.
    Answer. All revisions completed during the last decade were done 
using the 1982 Planning Rule. This was accomplished while new planning 
rules were being developed for implementation in 2000, 2005 and 2008. 
Implementation of each of these new planning rules was difficult as a 
result of litigation. Attempts to transition revisions underway as well 
as to initiate new revisions resulted in many aborted or delayed 
planning efforts.
    The agency's inventory and monitoring budget funds land management 
plan monitoring and the reporting of monitoring results. While National 
Forests and Grasslands are required to report annually on the number of 
monitoring reports completed, the agency no longer provides this number 
as part of our budget request. The number of monitoring requirements 
has been tailored in recent years to better reflect the amount of 
monitoring work that can be accomplished with a given budget. The 
number of monitoring requirements that can be addressed in any fiscal 
year is a function of available funding and the timing requirements for 
specific monitoring, because not all monitoring is needed on an annual 
basis. The total number of monitoring requirements can also change as 
units amend or revise their monitoring plans. These factors have 
contributed to a reduction in these activities.
                        land management planning
    Question 55. Over the last decade, the following BLI 
accomplishments have been dropped from the annual Budget Explanatory 
Notes: 1) number of watershed assessments completed; 2) number of broad 
scale assessments underway; 3) number of quarter quadrangle completed: 
please provide justifications for having dropped each of these BLI 
accomplishment reports.
    Answer. The performance measures used in the agency's Budget 
Justification represent meaningful program activities, outputs and 
outcomes that support agency goals and objectives. Another desired 
attribute is that these measures are sensitive to changes in funding. 
The total amount planned and accomplished will change in response to 
available funding. The agency periodically evaluates these performance 
measures to ensure that they meet these objectives and reflect recent 
changes in policy and program direction.
    The two assessment measures referenced above were used to describe 
two scales of assessments that could be conducted for a variety of 
purposes. These measures were redefined to reflect the requirements in 
the 2005 planning rule that emphasized two specific purposes for 
assessments that could be done at a number of scales: Land Management 
Plan (LMP) Development Assessments and LMP Implementation Assessments. 
These two purpose-driven measures were then combined into the current 
single measure of Assessments Underway which kept the combined 
definition but was more reflective of the allocations that did not 
differentiate between the two purposes. Further refinement of this 
measure is expected as the agency implements the 2012 Planning Rule.
    The agency used the measure ``quarter quadrangles'' for several 
years early in the last decade when an emphasis was being placed on 
improving our geographic information systems (GIS). That objective was 
met and continued use of that measure was no longer necessary. 
Geospatial work is now included in the measures for inventories and 
monitoring.
                          recreation visitors
    Question 56. The number of visitors to recreational areas 
maintained to standard has fallen from 112,135,085 in FY 2003 to only 
85,575,330 in FY 2011, yet funding for recreation programs have 
increased over the last decade; can you explain this significant fall 
off in visitation?
    Answer. Visitation to recreation sites has remained fairly constant 
over the last decade. What has declined is the number of sites 
maintained to standard. The deferred maintenance backlog for recreation 
facilities increased from $90 million in 2007 to $115 million in 2010. 
In 2011, there was a significant deferred maintenance reduction to $109 
million due largely to American Recovery and Reinvestment Act 
investments. However, the trend of increasing deferred maintenance 
backlogs will continue upward as facilities age.
                              visitor days
    Question 57. In FY 2006 the agency stopped reporting in the BLI 
accomplishment report on the number of visitor days of use in the 
general forest area that were administered to standard, why? Could you 
provide an estimate of the number of visitor days of use in the general 
forest area in FY 2011?
    Answer. Past reports on this metric (visitor days to general forest 
areas maintained to standard) were only approximations. The agency has 
started to focus on actual inventory (recreation sites) that can be 
measured.
    In FY 2010, general forest area visitation was more than 106 
million visits. The FY 2011 visitation results will be released by the 
end of April.
               wilderness areas administered to standard
    Question 58. In FY 2011 the agency reported that 220 Wilderness 
Areas were administered to standard. That is 240 percent above average 
and nearly double the previous high for the decade. 1) How many 
wilderness areas does the Forest Service administer? 2) How was this 
magnificent increase in production accomplished? 3) Were the standards 
changed to accomplishment and if so how?
    Answer. 1) The Forest Service currently administers 439 wilderness 
areas.
    2) In FY 2003, the Chief and National Leadership Team approved the 
10-Year Wilderness Stewardship Challenge, with the stated goal of 
having all wildernesses in existence at that time meet the minimum 
stewardship level by 2014, to coincide with the 50th anniversary of the 
Wilderness Act. The Challenge consists of ten elements of importance to 
wilderness stewardship and with broad applicability across the nation-- 
including the identification and treatment of invasive plants, the 
management of recreation impacts, and development and implementation of 
wilderness education plans.
    Since the official start of the Challenge in FY 2005, the Forest 
Service has steadily improved the number of wilderness areas meeting 
standard; increasing from 48 Wilderness areas in FY 2005 to 220 in FY 
2011.?

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The FY 2011 accomplishment of managing 220 wilderness areas to 
standard is 91 percent above the seven year average of 115 wildernesses 
and is a 25 percent improvement over the previous high of 176 
wilderness areas in FY 2010.
    Accomplishment reporting prior to FY 2005 and the start of the 
Challenge is not reliable due to the number of refinements that were 
made to the performance measure during that time as it was being pilot-
tested.
    This significant improvement has been accomplished over the past 
seven years through the concerted and focused effort of many people, 
including:

  <bullet> Improved skill base enhanced through training sessions and 
        ``toolboxes'' on the Internet for sharing examples of plans;
  <bullet> Additional national funding provided to the Regions and 
        National Forests for making progress on the Challenge, totaling 
        $1.52 million in FY 2011 and $2.92 million in FY 2012;
  <bullet> An energized and focused volunteer community, funded in part 
        by stewardship grants provided by the National Forest 
        Foundation; and
  <bullet> Increased attention of Regional Foresters, Forest 
        Supervisors and District Rangers on the goals of the Challenge.

    (3) Other than minor changes in terminology, the elements and 
scoring instructions have not changed appreciably since the start of 
the Challenge in FY 2005. The only substantive change occurred in FY 
2008 when the element tracking Baseline Workforce was expanded to 
consider the contribution from volunteers and other partner groups.
              grazing allotments administered to standard
    Question 59. The number of grazing allotments administered to 
standard has fallen to 55 percent of the decadal high and only 75 
percent of the decadal average, yet you have requested a funding cut in 
the grazing line item, why?
    Answer. The FY 2013 President's Budget proposes $40,380,000 for 
Grazing Management and will place greater emphasis on the 
administration and monitoring of existing grazing permits. By focusing 
on administration and monitoring of allotments, we are able to 
recognize and proactively address those areas where resource management 
concerns are developing, which will help to alleviate administrative 
actions after the fact. The proposal includes the administration of 
27,000,000 acres to 100 percent of standard, a decrease of 2,845,420 
acres from the FY 2012 budget estimate.
    The Allotment Acres Administered to 100 percent of Forest Plan 
Standards performance measure reflects the level of permit 
administration effort relative to implementing all grazing management 
direction prescribed in land management plans, project level NEPA 
decisions, grazing permits or agreements, and other relevant documents. 
Administering allotments to standard assures that management decisions 
identified during the NEPA process are implemented and desired outcomes 
are achieved, or are adjusted if initial actions are not effective. 
Although all grazing allotments are administered, priority is placed on 
administering allotments with known critical resource issues, such as 
management of habitat for endangered species.
                the number of grazing allotment decision
    Question 60. Signed in FY 2011, it is an all-time low. The FY 2011 
level is only 29 percent of the highest accomplishment level in the 
last decade. Is this because the agency has worked through its backlog 
of grazing permits needing to be updated? Please provide a compelling 
reason to reduce the grazing budget for FY 2013 in light of this 
accomplishment report.
    Answer. The FY 2013 President's Budget proposes $40,380,000 for the 
overall grazing program, and places a greater emphasis on the 
administration and monitoring of existing grazing permits. The proposal 
includes the completion of grazing NEPA analysis and decisions for 125 
grazing allotments, a reduction of 88 from the target of 213 allotments 
for FY 2012. The planned accomplishment level reflects an anticipated 
increase in NEPA analysis unit costs, due to many controversial and 
complex allotments in need of NEPA and other analysis for allotments 
that remain on the Rescissions Act Schedule. Effective NEPA analysis 
and decisions ensure that livestock grazing strategies are designed to 
provide for the restoration and long-term sustainability of rangeland 
vegetation and dependent resources while continuing to provide 
essential goods and ecosystem services. The provisions of the 
Rescissions Act of 1995 (P.L. 104-19, section 504) provide the agency 
with the ability to quickly renew, reissue, and issue new grazing 
permits without breaks in the permitting of grazing.
                  number of timber sale nepa documents
    Question 61. Until FY 2005, the agency reported on the number of 
timber sale NEPA documents through appeals and litigation. 1) Why was 
that metric eliminated from the BLI reports? 2) How many timber sale 
NEPA Documents that went through the appeals and litigation gauntlet 
were signed in FY 2011?
    Answer. We constantly evaluate our measures and make changes as 
appropriate to better track our accomplishments and outputs, as 
described in our answer to question #55 above. The agency decided in 
2005 that it was no longer necessary to track and report on this 
metric. The number of timber sale NEPA documents appealed in FY 2011 
was 45, or 17 percent of the 268 decision documents signed. A total of 
4 of these project decisions have been litigated to-date.
                           mining operations
    Question 62. The number of mineral operations administered to 
standard was only 80 percent of the decadal high in FY 2011; likewise 
the number of mineral operations where the permit requested was 
completed was only 66 percent of the decadal high and finally, the 
number of geological reports completed was only 34 percent of the 
decadal average accomplishment in FY 2011. Can you explain why the 
production levels are falling off and why the President's budget 
request doesn't increase funding for these programs?
    Answer. The actual number of active operations and applications we 
receive each year can vary significantly due to market influences and 
variable demand for mineral resources from NFS lands. Similarly, the 
scope, urgency, and competing priorities such as wildfires can result 
in significant variations in the number of geologic reports we complete 
each year.
    We must be efficient and effective in meeting our mission and 
delivering services to the American people. The Forest Service has 
pursued efficiencies and cost controls to ensure funding is directed to 
land management activities on the ground and to public services. The 
agency is responsive to guidance to promote efficient spending, cut 
waste, improve processes, and control costs in order to operate in a 
reduced budget environment.
    With our requested FY 2013 funding we will emphasize environmental 
review of proposed operations, including processing the backlog of oil 
and gas lease applications. Other priorities will include inspection 
and monitoring of ongoing mineral operations, providing professional 
expertise to ensure watershed health and public safety, and managing 
significant geologic resources.
    wildland fire preparedness--chains for fire line built per hour
    Question 63. Up until four years ago, both the budget request and 
the BLI accomplishment report indicated how many chains (distance) of 
fire line could be built given the proposed budget and how many were 
constructed given the Congressional funding in past years.
    Why did the agency stop reporting this accomplishment?
    Answer. Past years reporting on Firefighting Production Capability 
(FFPC) represents the total fireline building capability of all planned 
resources (personnel and equipment) if they are all deployed at one 
time, which is an extremely rare event. The agency now reports the 
number of total resources, by type, available to the agency to support 
national suppression operations throughout the fiscal year, not the 
amount of fireline that can be produced. Fireline production is 
dependent on several fire event specific factors to include location, 
topography, and weather which can cause fireline production capacity to 
vary significantly. This new approach eliminates the variability and 
provides more useful information and measurement to evaluate sustained 
national capability.
    Question 64. How many chains of fire line construction will the FY 
2013 budget request accomplish if the request is fully funded?
    Answer. As discussed previously, FFPC is not an accurate or 
meaningful measure of the agency's capability to sustain national 
operations throughout the fiscal year. There is tremendous variability 
in the production of any given resource since it is dependent on 
weather, terrain, and actual fire conditions. Establishing generalities 
for these factors further reduces the meaning of this measure.
    The Forest Service does however maintain an estimate of FFPC for FY 
2013 of 15,300 chains of fireline.
                 fire suppression--gross cost per acre
    Question 65. In FY 2007, the agency stopped reporting on the gross 
cost of fire suppression per acre. Why was that reporting stopped? 
Please provide that data for FY 2008--2013 in actual costs for FY 
2008--2011 and estimated for FY 2012 and FY 2013.
    Answer. The Forest Service's suppression performance measures are 
now program outcome and efficiency measures that focus on reducing fire 
risk. To help analyze suppression costs the agency uses an efficiency 
measure that compares actual costs to expected suppression costs via a 
stratified cost index (SCI).
    SCI is a set of predictive models based on spatially explicit 
historical large fire data from 1995-2004. SCI determines expected 
suppression costs for each fire utilizing several factors found to 
influence suppression costs. Fires with costs more than one standard 
deviation higher or lower than expected are considered outside the 
range of expected SCI costs. In real time, the SCI provides a 
comparison of a fire's expenditures to historical fires with similar 
characteristics (including fuel type, slope, elevation, and total 
housing value), increasing cost awareness and providing a basis for 
fire incident budgeting. SCI is also used to monitor mid- and long-term 
suppression expenditure trends.
    The following data for FY 2008 through FY 2011, assumes that gross 
cost per acre is based on only acres burned that is owned or protected 
by the USFS. Estimates for FY 2012 and FY 2013 are based on acres and 
costs maintaining their rolling 10 year average.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     timber salvage sale trust fund
    Question 66. Up until FY 2002, the Forest Service regularly 
reported on both the number of timber sales offered within this program 
and the amount of volume harvested by this program.
    The agency stopped reporting the harvests from the timber salvage 
sale trust fund in FY 2003, information that helps the public 
understand how much of the sold material was still commercial by the 
time the sale was offered. Can you help the Committee understand why 
this was stopped and provide suggested Appropriations language to 
ensure the Forest Service provides this information in the future?
    Answer. The Forest Service tracks the amount of volume that is sold 
through salvage sales in the Timber Salvage Sales Trust Fund. This 
information is available in the FY 2013 Budget Justification in the 
Permanent Appropriations section and in the Periodic Timber Sale 
Accomplishment Report which contains information on timber volumes by 
years (http://www.fs.fed.us/forestmanagement/documents/ptsar/2012/
Q1_2012_PTSAR_SW.pdf).
                    budgets and number of employees
    Question 67. From FY 2002 through FY 2012 the highest total budget 
(discretionary, mandatory, and emergency supplemental, including ARRA 
funding) was $7.0 billion. The lowest was in FY 2002 at $.47 billion 
and the ten year average was $6.0 billion. During that same time the 
number of Full Time Equivalents ranged from a high of 36,740 in FY 2010 
to a low of only 33, 203 in FY 2003.
    If your overall budget in FY 2012 was only 79 percent of the 
highest budget in FY2010, why is the agency number of full time 
equivalents fully 92 percent in FY2012 compared to FY 2012?
    Answer. The overall budget level in FY 2012 is $5,584,586 as shown 
in the FY 2013 Budget Justification. This is approximately 91 percent 
of the total budget in FY 2010 which was $6,113,658. Full-time 
equivalents (FTE) for FY 2012 are 33,824 which are approximately 95 
percent of the FTE level in FY 2010 which was 35,639. The decline in 
FTE levels between FY 2010 and FY 2012 is consistent with the decline 
in budget between these years.
    Question 68. How is it that the agency supported 36,704 full time 
equivalents in FY 2002 on a total budget of only $4.7 billion, yet it 
can only support 33,824 FTE's on a budget of $5.58 billion in FY 2012?
    Answer. Many factors contribute to the level of full-time 
equivalents that the budget supports in any given program and year 
(e.g. size of the workforce, type of work, grade level and salary, 
contracts, or grants and agreements). In addition, comparing full-time 
equivalents for mandatory appropriations is not entirely consistent 
between 2002 and 2012 due to differences in accounting for full-time 
equivalents for working capital funds, reimbursable and allocation 
accounts within appropriations. This was separated in the displays 
starting in the FY 2005 Budget Justification.
    The discretionary fund and type of work associated with FTEs 
account for the largest difference between years. As shown in the table 
below, from FY 2002 to FY 2012, appropriation levels increased for the 
Forest and Rangeland Research and National Forest System 
appropriations, but FTE levels decreased. This is due to a number of 
increasing costs for personnel compensation and benefits, contracts, 
and fixed expenses such as rent. Over the same period, the Wildland 
Fire Management appropriation level increased as well as the FTEs. This 
is due to increased work associated with preparedness, suppression and 
hazardous fuels activities. All of the other appropriations and 
corresponding FTE levels have decreased in the 2002 to 2012 comparison.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 69. When FY 2003 is compared with the FY 2012 budget and 
FTE numbers a proportion would suggest the agency's FY 2012 budget 
would have supported approximately 27,976 FTE's. Likewise, when the FY 
2009 budget of $7.0 billion and its 34,395 FTE's is compared, it would 
suggest the FY 2012 FTE number would have been on 27,187 FTEs. Can you 
explain why the Forest Service continues to carry 33,824 FTEs in FY 
2012 and is recommending 33,597 FTE for FY 2013 on a budget request of 
only $4.8 billion?
    Answer. The Forest Service is committed to managing costs and 
staffing levels commensurate with the work needed in a reduced budget 
environment. The following table displays the overall budget totals 
compared to the total number of full-time equivalents since 2002.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As shown by the display below, although FTE levels have varied over 
the last ten years, the FY 2012 FTEs level (33,824) is at the lowest 
level since 2002. FY 2009 was relatively higher due to short-term 
employment associated with the American Recovery and Reinvestment Act 
(ARRA). The budget levels have also varied over the last ten years. FY 
2013 proposed levels are close to the same as the level in FY 2003, yet 
FTEs will be reduced from 35,547 in 2003 to 33,824 in 2012. The 
estimate for FY 2013 is based on the proposed level of appropriations 
and mix of activities to accomplish the program of work. FTEs would be 
further decreased to 33,597 in line with declining budgets.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                    

      

</pre></body></html>
